<html>
<title> - NOMINATION OF ASA HUTCHINSON TO BE UNDER SECRETARY FOR BORDER AND TRANSPORTATION SECURITY OF THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 108-819]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-819

   NOMINATION OF ASA HUTCHINSON TO BE UNDER SECRETARY FOR BORDER AND 
                    TRANSPORTATION SECURITY OF THE 
                    DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 22, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
95-945                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 22, 2003.................................     1
Statement of Senator Cantwell....................................     7
Statement of Senator Dorgan......................................    50
Statement of Senator Hutchison...................................     7
Statement of Senator Lautenberg..................................    12
Statement of Senator Lott........................................     8
Statement of Senator McCain......................................     1
    Prepared statement...........................................     1
Statement of Senator Rockefeller.................................     6
    Prepared statement...........................................     6
Statement of Senator Smith.......................................    11
Statement of Senator Snowe.......................................    13
Statement of Senator Sununu......................................    10
Statement of Senator Wyden.......................................     9

                               Witnesses

Hutchinson, Hon. Asa, Under Secretary-Designate, Department of 
  Homeland Security..............................................    14
    Prepared statement...........................................    17
    Biographical information.....................................    20
Lincoln, Hon. Blanche L., U.S. Senator from Arkansas.............     2

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    53
Response to written questions to Asa Hutchinson submitted by:....
    Hon. Maria Cantwell..........................................    61
    Hon. Ernest F. Hollings......................................    54
    Hon. Frank Lautenberg........................................    60
    Hon. Gordon Smith............................................    62

 
   NOMINATION OF ASA HUTCHINSON TO BE UNDER SECRETARY FOR BORDER AND 
                    TRANSPORTATION SECURITY OF THE 
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                      WEDNESDAY, JANUARY 22, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good afternoon. We are pleased to have with 
us today, the Honorable Asa Hutchinson, who has been nominated 
to be Under Secretary of Border and Transportation Security at 
the Department of Homeland Security.
    I would tell my colleagues, Senator Lincoln, who had 
planned to be here and I think is on her way, would like to 
make some introductory remarks for her fellow Arkansan. And so 
if she comes, we will interrupt in order to allow her--here she 
comes now.
    Welcome. Thank you for coming to introduce the Honorable 
Asa Hutchinson. Please proceed and then we will proceed with 
the hearing and opening remarks from the Senators.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Good afternoon. The Committee meets today to consider the 
nomination of Asa Hutchinson to serve as the Under Secretary for Border 
and Transportation Security at the Department of Homeland Security. 
This is a very important position within the newly created Homeland 
Security Department, and one that encompasses far-reaching 
responsibilities.
    I would like to welcome Asa Hutchinson and thank him for his 
willingness to appear before the Committee today on relatively short 
notice. I know your nomination is a great honor, and that your family 
is very proud. I would like to welcome your family members and any 
special guests who are in the audience. [introductions]
    The Under Secretary for Border and Transportation Security is 
charged with critical duties, including: preventing the entry of 
terrorists and the instruments of terrorism into the United States; 
securing the borders, territorial waters, ports, terminals, waterways, 
and air, land, and sea transportation systems of the United States; 
administering U.S. customs laws, establishing national immigration 
enforcement policies and priorities; and carrying out INS immigration 
enforcement functions; and establishing and administering rules 
governing the granting of visas or other forms of permission, including 
parole, to enter the United States.
    With these duties will go jurisdiction over many existing 
governmental entities, including:

  <bullet> The United States Customs Service of the Department of the 
        Treasury;

  <bullet> The Transportation Security Administration (TSA) of the 
        Department of Transportation;

  <bullet> The Federal Protective Service of the General Services 
        Administration;

  <bullet> The Federal Law Enforcement Training Center of the 
        Department of the Treasury; and

  <bullet> The Office for Domestic Preparedness of the Office of 
        Justice Programs of the Department of Justice.

    Security policies are largely intertwined with safety policies, and 
many of the Under Secretary's functions are closely linked to other 
federal governmental agencies, such as the modal administrations under 
the Department of Transportation, which are responsible for 
transportation safety. Further, many duties overseen by the Under 
Secretary have been and will continue to be performed by the Coast 
Guard. All of these functions will have to be carefully coordinated and 
we will be very interested in learning how you plan to establish 
working relationships with these agencies.
    We will have a number of questions for you, but one area in 
particular that I will want to discuss is the serious situation at our 
Southern border, especially in Arizona. Our state has been a leading 
gateway for illegal immigrants into the U.S. since the mid-1990s. 
Illegal immigrants are dying on our borders. The attrition rate for 
Border Patrol Agents and INS inspectors has reached alarming levels. We 
have reached the point where we now have private citizens taking up 
arms and forming militia groups to patrol the border because they feel 
the Federal Government has failed to protect them. Just today, the Wall 
Street Journal reported about the death of a U.S. Park Ranger in 
Arizona who had been killed last August along the border, the fourth 
ranger killed in the line of duty since 1990. Further, uncompensated 
emergency and medical care provided to undocumented immigrants has left 
many border hospitals on the verge of financial ruin. I will be very 
interested to hear your views on how best to address the wide range of 
border security issues, including how to ensure adequate resources are 
deployed for enforcement purposes.
    This Committee takes its advice and consent role very seriously, 
and I will note that the nominee has responded in detail to the 
Committee's requests for biographical and financial data. I have had 
the opportunity to review your responses to the Committee questionnaire 
as well as pre-hearing questions, and I look forward to moving your 
nomination quickly.

             STATEMENT OF HON. BLANCHE L. LINCOLN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Well, thank you, Mr. Chairman. I will be 
brief and quick. I know the efficiency of this Committee, and I 
want to add to it.
    But I do want to thank you, Mr. Chairman. It is certainly 
my great pleasure to be here this morning to introduce a fellow 
Arkansan and a former colleague of mine in our State's 
congressional delegation, Congressman Asa Hutchinson.
    President Bush has nominated Asa Hutchinson as Under 
Secretary for Border and Transportation Security in the new 
Department of Homeland Security. I have had numerous 
opportunities to work with Mr. Hutchinson on a variety of 
topics over the last several years, so I have seen firsthand 
the commitment, the energy, and the foresight that he brings to 
his career in public service, and I am delighted that he has 
been selected for this critical position.
    I trust that the Committee is familiar with Mr. 
Hutchinson's impressive resume, so I will not take the time 
here to recount his many accomplishments. I would, however, 
like to emphasize the fact that, based upon his past experience 
as a Federal prosecutor; as also an elected member of the U.S. 
House of Representatives representing Northwest Arkansas; and 
as an administrator of a Federal law enforcement agency 
comprising over 10,000 employees, Asa Hutchinson has developed 
and honed the leadership and executive skills that will make 
him a valuable asset to this new department. I am very 
confident that he will bring to this position at the Department 
of Homeland Security the same commitment, integrity, and vision 
that he has brought to his service in Congress and the Drug 
Enforcement Administration.
    In the aftermath of September 11th, 2001, it has become 
clear that our Nation's security cannot be taken for granted. 
Among the newly created Department of Homeland Security's chief 
objectives will be to reduce our Nation's vulnerability to 
terrorist attacks and to prevent terrorist attacks against the 
United States. These objectives will be met, in part, at our 
Nation's borders and in our Nation's transportation system, 
both of which present potential vulnerabilities. I am very 
pleased that the Department of Homeland Security will draw on 
Asa Hutchinson's expertise in addressing these vulnerabilities 
and make the United States a safer place for all Americans.
    As a fellow Arkansan, I am proud of him, and I am happy to 
support his nomination to this distinguished position. Thank 
you, Mr. Chairman, for allowing me to come and introduce my 
fellow colleague from Arkansas.
    The Chairman. Thank you, Senator Lincoln, and thank you for 
being here before the Committee. We all appreciate your 
generous remarks about this very decent and fine American.
    Senator Lincoln. He is a good man. Thank you.
    The Chairman. Thank you.
    As I mentioned, we are here to welcome a friend, a former 
colleague in the House, and a man who has served his State and 
his Nation with distinction. We are very proud that he is 
willing to serve and that the President of the United States 
has chosen him for this most important set of responsibilities.
    I would like to point out that his duties will have 
jurisdiction over many existing Governmental entities, 
including the Customs Service, Transportation Security 
Administration, Federal Protective Service of the General 
Services Administration, Federal Law Enforcement Training 
Center of the Department of the Treasury, and the Office for 
Domestic Preparedness of the Office of Justice Programs of the 
Department of Justice. All very significant and heavy 
responsibilities.
    Before we proceed further, perhaps, Mr. Hutchinson, you 
would like to introduce your family members, who are with us 
today, who we welcome here.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I am very pleased to introduce my wife, Susan, who has 
stood with me through all of my public career, and I am 
grateful for her support. And then I have my son, Asa, and then 
his wife, Polly, and----
    The Chairman. Would you raise your hand? You look like your 
mother, fortunately.
    [Laughter.]
    Mr. Hutchinson.--his wife, Holly, and then my grandson, 
Asa, IV. I am pleased to have them here. And I also wanted to 
acknowledge my daughter, Sarah, and her husband, Dave----
    The Chairman. Who are where?
    Mr. Hutchinson.--and my two sons still in Arkansas--they 
are not here----
    The Chairman. Oh.
    Mr. Hutchinson.--but I just wanted to mention John and 
Seth, who have been also very supportive.
    The Chairman. Great. We welcome them, and we recognize that 
your responsibilities entail time away from your family, and we 
appreciate the sacrifices that they make as you serve the 
country.
    I do not want to take a lot of time with opening remarks, 
and I hope that my colleagues do not want to either, because we 
want to get to questions. It is our intention to try to get Mr. 
Hutchinson's nomination either to the floor this afternoon or, 
if there are additional questions, at the latest, tomorrow 
morning. We would like to get his nomination to the floor of 
the Senate so we can get it done tomorrow before we go out of 
session. It will be very important that we have this 
confirmation process completed by tomorrow afternoon, at the 
very latest--hopefully either this afternoon or tomorrow 
morning.
    I want to talk to you about an issue that you and I have 
talked about in private, so I will not belabor it too much. I 
think I am known for not indulging in particularly parochial 
issues that directly affect my home state of Arizona, but I do 
not think there is any doubt in anybody's mind that the entire 
border issue is in a situation that could be described as a 
crisis today. From San Diego to Texas, we have penetrations of 
our border, which are very severe and could be viewed by many 
as a threat to the United States of America, as far as the 
ability for terrorists to cross our border. I know that you 
know these things, but I would like to repeat them very 
quickly.
    According to a Gannett story on December 28th, 2002, four 
in ten illegal immigrants arrested in October along the U.S./
Mexican border were captured in Arizona, evidence the State 
remains the top choice of those attempting to enter the country 
illegally. The latest U.S. Border Patrol figures show that 
agents in Tucson apprehended 21,352 people; reported at Yuma, 
3,608. The overall number of people apprehended in Arizona is 
reported to be more than 25,000 in 1 month. One month, over 
25,000 people. Numbers in Arizona are up sharply over the same 
month last year, when heightened security following September 
11th slowed the flow of illegal immigrants along the entire 
2,000-mile border that stretches from San Diego to McAllen, 
Texas.
    Latest figures indicate the number of illegal immigrants is 
showing signs of climbing back to pre-September 11th, 2001, 
levels. Last year, 320 illegal immigrants died trying to cross 
the border into Arizona, according to Border Patrol officials--
320 people, who were coming to find a job so they could feed 
themselves and their families, died in the desert of Arizona.
    So what has been the reaction along the border? According 
to an article in the Arizona Daily Star on January 3rd, 2003, 
``Bisbee militia leader, Chris Simcox, says he is set today to 
launch the first patrols along the border with members of his 
homeland defense group. Simcox has said he plans to have groups 
of armed citizens patrolling three areas of the Arizona/Mexico 
line, although he would not specify the sites. A second patrol 
to be put on for the news media is scheduled for Sunday.''
    So we have got a situation where roughly 25,000 illegal 
immigrants are crossing the border in my State every month. 320 
of them died in the desert last year. They are not just people 
who are illegal immigrants, who are looking for jobs--although 
I would imagine the 320 were, because the drug smugglers are 
smarter than that. Drug-smuggling is at an all-time high.
    And then in today's front page of the Wall Street Journal, 
``A ranger's death shows new hazards of a venerable job. Organ 
Pipe Cactus National Monument, Chris--in the oven-like 
afternoon heat last October 9th, Chris Egel got a call for 
help. Mexican police were chasing a truck that was about to 
cross a poorly marked national border into the desert park. Mr. 
Egel, a 28-year-old park ranger, raced to the scene and found 
the truck stuck in a dust-filled pothole on the U.S. side. 
Several men spilled out and ran. Mr. Egel spotted one of them 
trying to hide behind a bush. He approached the suspect and 
prepared to arrest him when the man whipped out an AK-47 
automatic rifle and fired''--killed him. So the other mounting 
evidence is that these illegal immigrants are coming across--
many of them associated with the drug trade are coming across 
heavily armed.
    So I know you are aware of these issues, Mr. Hutchinson, 
but I think that we have got to act, and we have got to act 
very seriously, and it is going to require an effort on your 
part. It is going to require technology. It is going to require 
money, and it is going to require a commitment that perhaps we 
have sort of turned a blind eye to.
    And let me just, finally, make the other point that 
complicates this issue so much. As soon as those people, the 
25,000 who are crossing our border, get someplace north, guess 
what? They get a job, because there are people who are hiring 
them. So there is a contradiction and almost an hypocrisy here, 
because we want people to stop crossing our border; yet as soon 
as they get here, we will hire them and pay them at a level 
that they cannot achieve back in Mexico or Honduras or El 
Salvador or China, wherever it is--because they are coming now 
from all over the world across our border.
    Now, that issue may be a little bit beyond your area of 
responsibility, but I really believe that, as a Nation, we have 
got to grapple with this issue. And I think the first decision 
we need to make is whether we are going to control our border 
or not. But not act like we are, when we really are not. And we 
owe it to these good men and women who are serving on the 
Border Patrol, Customs, INS--to give them a lot better deal 
than the one they have got today to prevent these needless 
deaths of both people who come here illegally, as well as those 
who are tasked to enforce the law.
    I thank you for being here. I thank you for listening.
    And, Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thanks, Mr. Chairman. I will put my 
statement in the record.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia


    Thank you, Mr. Chairman. I would like to welcome our distinguished 
nominee and thank him for appearing before us this morning.
    Administrator Hutchinson, you have served with distinction in the 
Drug Enforcement Administration and I am confident that you will 
continue to excel in your new role.
    Nevertheless, difficult challenges lie ahead.
    While the Transportation Security Administration has made an 
impressive start in its first year of existence, much more work is 
required to further bolster the security of our transportation 
infrastructure.
    Moreover, you will be tasked with integrating Customs and INS into 
the broader transportation security architecture.
    The job you are about to undertake is of the utmost importance to 
America, and it is essential that you succeed.
    The ongoing health of our economy, and indeed our very way of life, 
is predicated on the ability to move people and goods efficiently and 
securely.
    In the months ahead, I encourage you to coordinate closely with us 
in the Congress. Working together will be critical to ensuring success.
    I know that today's open hearing will restrict your ability to 
discuss sensitive matters in any kind of detail.
    I hope, Mr. Chairman, that we will have an opportunity to invite 
Mr. Hutchinson to come before us again soon--in a closed session--so 
that we will be able to discuss topics that are not appropriate for 
this morning's hearing.
    Thank you again, Mr. Chairman. And I look forward to hearing from 
Mr. Hutchinson.

    Senator Rockefeller. I do want to strongly associate myself 
with your comments and with the firmness and emotion that 
accompanied them.
    I also want to welcome Administrator Hutchinson and say 
that--I will save my questions for when that comes--but that I 
had not had a chance, Mr. Chairman, to know Asa Hutchinson 
particularly well until we took a trip together to South 
America and had a chance then to really discover that maybe we 
were OK, each of us, as people, and we have been good friends 
since then.
    So I look forward to questioning him and then voting for 
him as soon as possible.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Cantwell? We have the early bird rule----
    Senator Cantwell. It is nice to know, Mr. Chairman, that 
this Committee----
    The Chairman.--here where even our newest members, who we 
welcome with enthusiasm, and, may I say, far more enthusiasm 
than the member to your left----
    [Laughter.]
    The Chairman. So I want to thank you----
    Senator Lautenberg. You could see that coming.
    [Laughter.]
    The Chairman. In the Committee, we welcome you, and we look 
forward to working with Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Well, thank you, Mr. Chairman, and thank 
you for that early bird recognition of being here. It is an 
honor to serve on this Committee and it is an honor to serve in 
the historical context of one of the great figures in our 
State, Warren Magnuson, having been on this Committee for 37 
years and chairing it for some time.
    I do also want to thank Director Hutchinson for his time 
today and his efforts in Washington State on methamphetamine 
and a variety of other issues.
    Obviously, the issue of borders is very important to the 
northern tier of the country, as well, and I look forward to 
your comments today about how we continue to upgrade the amount 
of manpower that we have put on the border. While we have made 
some progress in the last Congress of actually, I think, 
tripling the authorization and actually doubling the number of 
people, the bottom line is it still remains about 9,000 people 
on the southern border and about 600 on the northern border. So 
we have had a variety of challenges given that we are a border 
State next to such a large population center, and the 
complexity of also obviously having a lot of container traffic 
going in and out of those ports.
    So it is no surprise that after the Rasaam case in 
Washington State, where someone came through and the Customs 
agents actually caught a terrorist on their way to either blow 
up LAX or the Space Needle or whatever it was, that we have 
heightened our interest in making sure that we do not have a 
porous border there.
    So I am very interested in your new responsibilities as it 
relates to implementing a section of the Patriot Act dealing 
with a biometric standard. We are very interested in seeing a 
process by which either facial or fingerprint recognition can 
be a more stable source, working with countries abroad to 
determine who should get a visa prior to being let into the 
country, as opposed to the process that we are pursuing today, 
trying to track people once they are already here, or the large 
number of deportations that are about to happen. You will be 
responsible for implementing that part of the Patriot Act, so I 
look forward to your comments on that.
    And then, last, just the process that we can work with 
together on, port security, and the fact that container cargo 
could be as close as a mile away, to 30,000 fans watching a 
Mariner or a Seahawk game, and how we implement good border 
security--container security at our ports, as well.
    I look forward to your rapid confirmation, hopefully this 
afternoon, and working with you on those issues in Washington 
State.
    The Chairman. Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Chairman, I especially thank you for your opening 
comments regarding the southern border. We do have border 
issues at the north. We certainly have them from the south. And 
we are reading more in Texas about the vigilantes who are going 
out to protect their own ranches because they cannot get Border 
Patrol to help them.
    What the Chairman said is so true. We have got to decide if 
we are going to have enforcement of our borders or not. And 
what we really must decide is, Are we going to create safe and 
legal means for people to come into our country and then 
enforce the laws when they are broken? And I think that has to 
be the right order. But we have done neither.
    So I think, Mr. Hutchison--Hutchinson--to pronounce it 
incorrectly----
    [Laughter.]
    Senator Hutchison.--you are going to have a huge job in the 
enforcement area. I hope that you will immediately start 
looking at tamper-proof passports, tamper-proof visas, a 
tracking system so that we know who is in our country and when 
they either disappear or leave.
    In addition to the borders, of course, you have 
transportation. Certainly, aviation has come a long way since 
9/11, but air cargo is still an area that we must address to 
make sure that everything that goes on an airplane is looked at 
and we know that it is safe.
    Ports are a huge area, certainly in my home State. Our 
ports have hired extra personnel. They have put up fences. They 
are doing a lot on their own, but they cannot do the whole job 
on their own without Federal help and Federal guidelines. The 
people coming into the international waters must be patrolled.
    So you have a huge job, and we look forward to working with 
you. I will ask you some questions, as well, but I know that 
you have had a huge learning curve. To take over the INS and 
all of the transportation security in our country is an awesome 
responsibility.
    I will say that I think Admiral Loy has done a remarkable 
job in a very short time with the aviation side, and now he has 
said he is turning to ports and other modes of transportation, 
which I think is correct.
    So I look forward to working with you as the chairman of 
the Service Transportation Subcommittee, and with the chairman, 
to make sure that all of our borders and our transportation 
modes are secure.
    Thank you.
    The Chairman. Thank you.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman, for having this 
early hearing. And thank you, Congressman--and I still refer to 
you as Congressman--Hutchinson, for agreeing to take this very 
important and difficult task on. Our appreciation goes out to 
your family for being willing to tolerate the demands that are 
going to be placed on your time in the weeks and months ahead.
    Certainly you are very qualified for this difficult 
assignment. Your two terms in the House, your experience as 
U.S. Attorney, and, of course, your experience as the 
Administrator of DEA, provides you with an insight in to the 
nature of the threat and the need for Federal agencies to work 
with each other and State and local governments to protect the 
United States from external and internal threats. I believe you 
are going to need every bit of that experience, knowledge and 
leadership, because you are taking on one of the most difficult 
tasks that I have seen an individual or a new Under Secretary 
to have to deal with. You have got a huge jurisdiction that you 
are going to have to bring together. Of the five new under-
secretaries, I think yours is the one that is going to be the 
most important and difficult because of all the different 
functions and facilities and organizations that you are going 
to have to try to bring into one that makes sense and works 
together.
    I have been, like most senators, trying to keep an eye on 
how well the Transportation Security Administration has been 
working. I think they have done, really, an incredible job. 
Just yesterday, I took the time to go through the facility at 
Lexington, Kentucky, to look at what they were doing, and look 
at the people. I was very impressed with the quality, diversity 
and attitude of TSA's workers. But I think we still have a lot 
more that we need to do.
    Now, I understand you also will have INS under your 
jurisdiction. Good luck working with that. I think we have 
given you a challenge in getting all these different entities 
to work together. In one instance, at least, the Coast Guard 
will not be located in your directorate, and I think it is 
going to be very important that the Coast Guard and the Border 
Patrol and INS, all of them, are working together in a 
cooperative way.
    So we have a job to do here. It is not one in which we have 
a choice. It is very, very important for the security of our 
people here in America. I wish you the very best. I am 
delighted the President selected you for this position. I think 
that you are going to have a good team there. And we are 
expecting a lot out of you soon.
    So I will have a couple of questions, some even a little 
parochial, although John McCain would certainly not expect that 
from me----
    [Laughter.]
    Senator Lott.--but I will have at least one in that area 
when our time comes. Thank you very much for being here.
    The Chairman. Thank you, Senator Lott.
    Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    And I, too, think that Asa Hutchinson's going to be an 
excellent choice for this position. I just want to outline a 
few concerns.
    First, with respect to the border, I think Mr. Hutchinson 
knows that there is a long history of Government officials 
announcing, with tremendous fanfare, various programs to better 
enforce the borders, and they always seem to peter out, and I 
think what I would especially like to hear is how your office, 
pushing the U.S. Congress, will break that cycle and ensure 
that this time, the job really does get the followup that is 
warranted. And that means the U.S. Congress is going to have to 
support you. It is not something where you just go out and 
tackle it on your own. That follow-through is something that I 
would really like to hear addressed this morning.
    Two other points, just very quickly. As someone who has 
really specialized in technology issues, and has had the chance 
to serve under Senator Rockefeller on the Intelligence 
Committee, I think we have got to beef up information sharing, 
and there is the technology today to do this job right. With 
the agencies you have got, INS, Border Patrol, and Customs, if 
one of them sits on information and does not get it out 
throughout the network, everything is going to fall apart, and 
clearly, that is something post-9/11 that we are aware of, and 
you will have a chance to do something about it.
    Finally, the third area I am going to ask you about is 
protecting whistleblowers. I think if there is one thing that 
we have seen, in terms of trying to hold the key agencies 
accountable, we have got to have protections for 
whistleblowers. I think James Loy is off to a very good start, 
but he has signed some orders recently that do, in my view, 
affect our ability to get information with respect to 
mismanagement. I will be asking about those issues, as well, 
and look forward to your service and supporting you in the 
confirmation process.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman. And welcome, Asa.
    Mr. Chairman, having been elected with Asa to the House in 
1996, and having served with him for 4 years, being someone 
that considers himself a good friend to Asa, I would like to 
think that I was, in some small way, responsible for his 
enormous success since coming to the House. Unfortunately, that 
is not the case.
    His success is really driven by the wealth of experience he 
has brought to the job as U.S. Attorney, at the DEA, and, of 
course, his service in Congress. And I will say, as one of his 
classmates from that year, 1996, we are all very proud of the 
work he has done, the success he has had, and the 
professionalism with which he has handled himself during a very 
tough time in these past few years dealing with the immigration 
issues, the national security issues, the drug-enforcement/law-
enforcement issues. He has done a tremendous job, and that is 
why I think there is so much agreement that he is the right 
person at the right time for the tough challenge ahead.
    There are two areas where Asa has worked in the House, 
where I have seen him work, that I would want to highlight. I 
am sure he is not going to give a litany of all the wonderful 
things he has done and the reasons he will do a good job at 
Homeland Security, but two areas I would like to highlight that 
I think will make a difference.
    One is in areas of rural law enforcement. Asa was a leader 
in the House in trying to understand the unique needs of rural 
law enforcement--important, of course, to a State like New 
Hampshire, which is a pretty rural area. But his work there 
underscores the fact that he understands there is not going to 
be a single approach in Homeland Security, or Immigration, or 
Border Patrol that will meet the needs of every different 
State, every different part of the country. There are different 
needs at the State level.
    Ultimately, understanding how Homeland Security can assist 
those local agencies, local law enforcement, or local first-
responders is going to be extremely important to making the 
department work. Asa certainly brings that perspective and a 
proven record there.
    Second, I would emphasize his great record in working to 
strike a balance between the needs of law enforcement and the 
basic obligation that we all have, as Members of Congress, to 
protect the rights of individuals and individual civil 
liberties. This is an area where there has been and will 
continue to be an enormous amount of discussion and debate. We 
all understand those fundamental rights, the individual rights, 
that are protected in the U.S. Constitution. There may be some 
disagreements as to the exact right way to pursue efforts to 
strengthen law enforcement or strengthen national security and 
still protect those rights, but Asa has shown a very thoughtful 
approach towards these issues. He has shown an ability to 
understand some of the more complex areas of constitutional law 
relating to civil liberties. I think that, in this new role, 
this kind of perspective will be extremely, extremely 
important.
    Again, I am excited for Asa and for his family. I am very 
proud to be able to call him a friend, and I look forward to 
his great work for Secretary Ridge.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith?

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman.
    Asa, I join my colleagues in welcoming you here. I truly 
enjoyed our visit the other day, and thank you for the courtesy 
you showed me, and many of my colleagues, I am sure, to come by 
our offices.
    I am perhaps repeating much of what has been said, but I 
think Chairman McCain really hit on one of the issues that the 
American people feel very keenly, and that is the integrity of 
our borders. If you listen to talk radio at all, you will know 
that there is an incessant demand for militarization of our 
borders, and I am not advocating that, but I notice that, in 
your record, you actually did vote for that. I would be 
interested to know if you still think that the United States 
military has a role to play on our borders.
    Having said that, as someone who worked with Ron Wyden and 
others to try to make sense out of our immigration policy with 
respect to migrant workers, it is a fact that there are a few 
crops in agriculture, those that are labor intensive, that 
would simply shut down in the United States if there were not 
some ability to employ migrant workers. Some of us have worked 
very hard to find the right compromise to bring some 
rationality into a visa program that would allow them to work 
and give them the safety to return, and the integrity of law 
under which they could live while they are here, and we have 
been frustrated at every turn. And so any thoughts that you 
might have on that I think are very, very needful.
    And we, as a country, have a special reason and 
relationship to keep a special relationship with Mexico and 
Canada, and I think these are very difficult times, because of 
terrorism's overlay on everything we are talking about here.
    But, again, welcome. Please be mindful that--when it comes 
to the INS, there are some local sensibilities, too, 
particularly, in the State of Oregon, where we have had a very 
unfortunate recent experience with a local director there that, 
fortunately, has been removed, but--as it relates to racial 
profiling in a very flagrant and invasive way.
    So, welcome. We look forward to your service. And thank you 
for being here.
    The Chairman. Senator Lautenberg? And, again, welcome to 
the Committee from an old friend and colleague. Welcome, 
Senator Lautenberg.

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you for your warm welcome, Mr. 
Chairman.
    I am pleased, Mr. Chairman, to join with you and the other 
Members of the Commerce Committee in welcoming this very 
capable individual to take this post.
    Congratulations to you, Mr. Hutchinson, and to your family. 
They are all proud, and proud, they should be. It is an 
important post that you are taking, and the country is putting 
a huge reliance upon you.
    This Committee, as you know, is going to oversee key 
functions of the DHS, including transportation security. These 
responsibilities are a vital part of the new department and 
will present an enormous challenge. As Under Secretary for 
Border and Transportation Security, you will have to strike the 
balance between keeping our borders, roads, rails, and airways 
safe without unduly hindering the commerce and travel of 
Americans.
    And in response to the Chairman's plea, or the Chairman's 
interest in avoiding the border intrusions that we see, there 
is no section of our great country that is not subject to 
intrusions, one way or the other, whether it is desert borders 
or mountain borders or sea borders, as we have it in my area of 
the country.
    And I want to welcome you, Mr. Hutchinson, to this hearing. 
I look forward to hearing how, if you are confirmed as Under 
Secretary for Border and Transportation Security, you plan to 
execute the enormous responsibilities of this office, to 
oversee the protection of the Nation's 300 ports, 7500 miles of 
border, 95,000 miles of shoreline.
    And after September 11, we understandably focused on 
aviation security first and foremost. All Americans who fly now 
see real changes in the security procedures that beguile us as 
we go to the airport. But transportation security is not just 
relevant to airplanes. In my State, crisscrossed with a network 
of commuter rail lines and, of course, Amtrak, we must make 
sure that rail security is a real priority.
    The Port of New Jersey and New York is the largest port 
complex on the East Coast of North America, and our port is 
critical to our region's infrastructure and the economy. We 
need to make sure the port facilities are safe from attack. And 
this directorate also has the responsibility, as you well know, 
for a very important agency, the Federal Emergency Management 
Agency, for immigration practices and cross-border animal and 
plant inspections, all the vital components of our homeland 
security and vital to my home State of New Jersey.
    But I have observed our candidate's ability, Mr. Chairman, 
and skill, and I was impressed, I must tell you, and I told 
this to you personally, even though we were on different sides 
of the issue, I had the utmost respect for your professionalism 
and your capacity to take on assignments.
    And I just wish you the strength and energy to handle this 
important task for your country. And I look forward to hearing 
from you about your strategies to undertake this enormous task. 
And I hope that we will have the chance to communicate as you 
get further into the job. I wish you well. Thank you very much.
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    I am delighted to be here today to consider the nomination 
of Asa Hutchinson to this position, one that obviously does 
represent significant responsibilities. And obviously there is 
going to be a sense of urgency with all the compelling 
obligations that you will be assuming in becoming Under 
Secretary for Border and Transportation Security. And I have no 
doubt that you will provide the kind of leadership that is 
essential to ensuring our Nation's homeland security.
    You will face a lot of challenges, as you undoubtedly know. 
I was reading someplace that your agency will have the most 
employees within the Homeland Security Department. And some 
experts were saying that your job is not impossible; it just 
appears that way.
    So with that, you know what you are undertaking in terms of 
beginning to grapple with the myriad challenges in coordinating 
and really reconciling a number of agencies that you will have 
to transcend the historic cultures that have characterized 
these agencies in the past.
    As one who has been involved in information sharing since 
the aftermath of the 1993 World Trade Center bombing, I can 
assure you that information sharing still will become one of 
the most profound challenges that you will face in your 
position. In addition, obviously, consultation, coordination, 
and communication will also be vital ingredients to making your 
agency work.
    There are many gaps in the system currently. If you read 
the report that was issued by the Hart-Rudman Commission last 
fall, that America is still dangerously unprepared for a 
terrorist attack on our soil, obviously we have to accelerate 
timetables that exist in a number of areas. When I look at the 
gap in--for example, port security, which is still one of the 
most, I think, significant gaps in our security system in 
America. When you think about the fact that only 1 to 2 percent 
of the 6 million containers that come from overseas are 
inspected, and 95 percent of our trade from outside North 
America moves to the United States by sea, it is absolutely 
vital that we focus on this front line of defense. And the 
Hart-Rudman report underscored that in a very compelling way.
    So obviously, we have much more to do, and I would hope 
that you will be able to work with us, here in this Committee 
as well as in Congress, to begin to create a comprehensive 
plan, particularly for high-risk container shipments, so that 
we can begin to profile those, to alert authorities, to focus 
their limited inspection and enforcement resources on those 
that represent the most high-risk containers. In addition, we 
ought to make sure that radiation detection devices are given 
to each inspector, as well.
    So I hope that these security measures can move in a most 
urgent fashion to begin to really address and fill some of the 
gaps when it comes to port security. As one who chairs the 
subcommittee that oversees the Coast Guard's responsibilities, 
I will be holding a hearing to examine their role in fulfilling 
the mandates under law with respect to homeland security. But, 
again, I would urge you to work hand-in-glove with the Coast 
Guard to ensure that everything, in terms of procedures and 
process, is operational. It is absolutely vital that you work 
in concert.
    It is important that we do not wait until dangerous cargo 
is intercepted when it is in our ports. We obviously have to 
make sure and prevent that from happening before they get into 
our ports, and that is where the Coast Guard is going to be 
playing a primary function.
    Also, air cargo. And Senator Hutchison has been working on 
that and has introduced legislation last week, and I have 
introduced legislation, as well, in working with her, because 
we really do have to examine the gaps that currently exist when 
it comes to air cargo. You know, half of a passenger planes 
hull consists of air cargo, and yet it remains uninspected. So 
I think we have to begin to fill the gap.
    Now, I have recommended doing a random inspection of 5 
percent of the cargo. I think we have to begin to take steps in 
that direction, authenticating those who are shipping this 
cargo so that we know who the shippers are, so that we have 
some identity of the air carriers and other entities involved 
in aviation shipping. But I think it has to be addressed with a 
compelling sense of urgency.
    So, again, Asa, I welcome you. I applaud the remarkable 
willingness that you have shown in addressing these issues that 
are facing our country today, and I wish you well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Please proceed with your opening statement, following which 
we will ask some questions.
    I would like to tell my colleagues, I was told that we will 
have a vote at 4:05.

 STATEMENT OF HON. ASA HUTCHINSON, UNDER SECRETARY-DESIGNATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Chairman McCain, Senator Rockefeller, 
distinguished Members of the Committee, thank you for your very 
kind remarks that you made, but also very thoughtful 
observations as to the challenges that are ahead.
    I do want to express my appreciation also to President 
Bush, who has expressed confidence in me by nominating me for 
the Nation's first Under Secretary for Border and 
Transportation Security.
    Mr. Chairman, you and your Committee should be applauded 
for the outstanding work that you have done over the last 16 
months to improve the security of our homeland. Your swift 
action in passing the Patriot Act, the Aviation Transportation 
Security Act, the Maritime and Rail Security Acts, and the 
Homeland Security Act, has been very critical to protecting us 
against threats from those who would do us harm.
    Sixteen months ago, I took leave of Congress and took the 
reins of an agency with a singular focus on fighting what many 
perceived to be an unbeatable foe, the problem of illegal 
drugs. At the time, I viewed the responsibility entrusted to me 
as a very noble endeavor that was critical to our Nation's 
future, and I continue in that belief today. At the DEA, it has 
been my great privilege to serve alongside some of the finest 
men and women in law enforcement, and I have been humbled by 
their dedicated service, their extraordinary courage and 
excellent work, and would like to thank them publicly for their 
efforts, their support, and their achievements.
    But now a new threat is on the horizon. The character of 
our Nation has been tested over the last year-and-a-half. We 
have experienced the most devastating attack on American soil 
since Pearl Harbor, and we, as a Nation, have been changed. And 
as a result, vulnerabilities from which we had been insulated 
for decades came into focus. But the September 11 attacks also 
gave us a new sense of patriotism, a sense of responsibility 
for our neighbors. It has united us in our resolve to find and 
punish those responsible, but also our resolve to protect our 
freedoms, our communities, and our future. It is this task to 
which you have devoted much of your last 16 months of service, 
and it is this task to which I have now been called by the 
President. And this, too, is essential for our Nation's future.
    As Governor Ridge stated just last week, we are at the 
beginning of what will be a very long struggle to protect our 
Nation from terrorism. While much has been accomplished, there 
is much more work to do. Men and women who responded after 
September 11 following the attack, coming to the aid of those 
who were affected, they have worked to secure our borders and 
our critical infrastructure, and they have pursued those 
responsible. They have taken the very first steps toward 
protecting our homeland, but we, additionally, have to 
followup.
    The President and Congress quickly followed by enacting 
strong legislative measures to assist in that mission, and one 
of which brings me here today--that is, the Homeland Security 
Act, which consolidates 22 of the Federal agencies for the 
responsibility of protecting the homeland into a single agency 
with a very narrow focus. Governor Ridge and Secretary England 
have been selected by the President to lead this component of 
homeland protection. And if confirmed, I will be delighted to 
work with them along with the 100,000-plus employees who 
currently serve in agencies that will be transferred to the 
Borders and Transportation directorate.
    The President has set forth a comprehensive plan with very 
tangible benchmarks to measure success through the national 
strategy for homeland security. As part of that strategy, the 
Under Secretary for BTS has been given jurisdiction over the 
functions currently performed by the Customs Service, INS, 
enforcement side, including the Border Patrol, Federal 
Protective Service, the Federal Law Enforcement Training 
Center, TSA, and a new Office of Domestic Preparedness. The 
specific mission to prevent the entry of terrorists and 
instruments of terrorism is combined with ensuring the speedy, 
orderly, and efficient flow of lawful traffic and commerce. And 
should I be confirmed, I will commit wholeheartedly to fulfill 
both of those dual missions.
    To accomplish the mission, we must do a number of things. 
We have to bring the incorporated agencies onboard into the 
department by the goal of March 1, and we do it in a fashion 
that continues their operational capacity. We have to 
accomplish significant reorganization of those agencies coming 
into Border and Transportation directorate with the appropriate 
approval and oversight of the U.S. Congress. We must enhance 
the human intelligence gathering and sharing within the 
agencies comprising the BTS directorate. We have to bring the 
inspection functions at the ports of entry within a unified 
chain of command structure, the result of being a more secure 
border. We must improve the technology used on the border and 
in the transportation systems to enhance the flow of commerce 
while detecting and detaining unlawful cargo. We have a 
responsibility for developing visa issuance regulations, which 
includes training and staffing to reduce the abuse of our visa 
program by those who wish to harm America. We have to 
effectively communicate with the Congress and the American 
public on the operations of these agencies and our ongoing 
efforts to fulfill the mandates of Congress.
    On the enforcement side, we have much to do, as well. We 
must make the necessary adjustments of the enforcement 
priorities, and at the same time improve the management 
oversight and the information technology that exists within 
each of these agencies.
    I should add that as I oversee the INS enforcement efforts, 
I will continue to emphasize the essential nature of 
immigration services. Homeland Security must be about 
protecting America, but it is an America that includes those 
who lawfully come to America to share our freedom, our future, 
and the responsibility to defend this land. We must continue to 
welcome lawful immigrants, even as we take steps to protect our 
borders from unlawful entries.
    Serving as the Administrator of the DEA has provided me 
with an extraordinary experience in managing a Federal agency 
with a substantial budget, significant national and 
international presence, and thousands of employees. Experience 
that I gained will contribute to my ability to achieve the goal 
of effectively integrating the agencies that fall under the BTS 
directorate.
    And during my time at the DEA, we have contributed, in our 
own way, to protecting the homeland by disrupting and 
dismantling some of the sources of terrorist funding by 
enforcing our drug laws.
    My service at the DEA, as a Member of Congress, and as 
United States Attorney, has given me experience in 
communicating and working closely with a variety of 
stakeholders on a regular basis. And should I be confirmed for 
this position, I commit to continue that practice of 
communicating regularly with the Federal, State, and local 
government officials, community groups, transportation industry 
leaders, shippers, and others who will be directly impacted by 
the operations of these BTS agencies.
    But of greatest importance, we must communicate frequently 
with the nearly 100,000 employees who will transfer into BTS, 
giving them information, support, and motivation to continue 
their dedicated efforts in shielding this Nation from 
terrorists. The employees who transfer are hard-working men and 
women who perform critical tasks on a daily basis, and overall, 
they do their jobs exceptionally well. By merging those 
agencies into BTS, these public servants will not be asked to 
change what they do from day to day; rather, the organizational 
structures will be refocused, consolidated, and reorganized so 
they can better perform the function of protecting the 
homeland.
    Although these employees carry out a variety of 
responsibilities, they will now go to work each morning with 
the constant thought of, ``Today, what can I do to protect 
America from those who hate us and wish us harm?''
    Mr. Chairman, I have always believed that the first duty of 
Government is to protect and defend its citizens. A great 
portion of that responsibility falls on the new Department of 
Homeland Security. It is a duty I acknowledge. It is a duty I 
accept. And it is a duty I fully dedicate myself to fulfilling.
    Thank you for providing me this opportunity to appear 
before you today, for the support that you have expressed, and 
for the continued working relationship that we will have.
    Thank you, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Hutchinson follows:]

 Prepared Statement of Hon. Asa Hutchinson, Under Secretary-Designate, 
                    Department of Homeland Security

    Chairman McCain, Senator Hollings, distinguished Members of the 
Committee, I am delighted and honored to appear before you today. I am 
grateful for the confidence President Bush has expressed by nominating 
me to serve as our nation's first Under Secretary for Border and 
Transportation Security.
    Thank you also for the hard work and leadership you have provided 
over the last 16 months to the enormous task of securing our homeland. 
Your swift action in passing the Patriot Act, the Aviation and 
Transportation Security Act, the Maritime and Rail Security Acts, and 
now the Homeland Security Act, has been crucial in our effort to 
protect against threats from those both here and abroad who would do us 
harm.
    Mr. Chairman, sixteen months ago I took the reins of an agency with 
a singular focus on fighting what many perceived as an unbeatable foe--
the problem of illegal drugs. At the time, I viewed the responsibility 
that President Bush and the Senate entrusted to me as a noble endeavor 
critical to our nation's future, and I continue in that belief today. 
It has been my great privilege to serve alongside some of the finest 
women and men in law enforcement. I have been humbled by their 
dedicated service, extraordinary courage, and excellent work and would 
like to thank them publicly for their efforts, their support and their 
achievements. Great strides have been made in the fight against drugs 
in the last year and a half, and I know that the men and women of the 
DEA will achieve even greater success in the months and years to come.
    Chairman McCain and Members of the Committee, the character of our 
nation has been tested over the last year and a half. We experienced 
the most devastating attack on American soil since Pearl Harbor, and we 
have been changed. Unfortunately, vulnerabilities from which we had 
been insulated for decades became entirely too real to many of us. But 
the September 11 attacks also gave us a new sense of patriotism and 
responsibility for our neighbors. It united us in our resolve to find 
and punish those responsible but it also united us in our resolve to 
protect our freedoms, our communities and our future. It is this task 
to which you have devoted much of your last 16 months of service in the 
Senate, and it is this task to which I have now been called by the 
President. This, too, is essential for our nation's future.
    As Governor Ridge stated just last week, we are at the beginning of 
what will be a long struggle to protect our Nation from terrorism. 
While much has been accomplished, there is much more work to do. The 
men and women who responded on September 11 and the days following by 
coming to the aid of those affected by the attacks, secure our borders 
and critical infrastructure, and by pursuing those responsible, have 
taken the important first steps toward protecting the homeland in this 
new era.
    The President and Congress quickly followed by enacting various 
legislative measures to assist those men and women in that mission, the 
most significant of which, the Homeland Security Act, consolidates 22 
of the federal agencies with responsibility for protecting the homeland 
into a single agency whose primary focus is protecting the Homeland. 
Governor Ridge and Secretary England have been selected by the 
President to lead this important component of homeland protection. If 
confirmed to serve as the Under Secretary for Border and Transportation 
Security (BTS), I, too, will join them and the nearly 100,000 employees 
who currently serve in agencies that will transfer into BTS, in this 
effort.
    The President has set forth a comprehensive plan with tangible 
benchmarks to measure success through the National Strategy for 
Homeland Security. As part of that strategy, the Under Secretary for 
Border and Transportation Security has been given jurisdiction in the 
Homeland Security Act over the functions currently performed by Customs 
Service, INS, including Border Patrol, Federal Protective Service, the 
Federal Law Enforcement Training Center (FLETC), TSA and a new Office 
of Domestic Preparedness. The specific mission is to prevent the entry 
of terrorists and the instruments of terrorism while ensuring the 
speedy, orderly and efficient flow of lawful traffic and commerce. 
Should I be confirmed to serve as Under Secretary for Border and 
Transportation Security, I would commit wholeheartedly to fulfill that 
mission by striving to meet these more specific goals:

        1)  Bringing the incorporated agencies on board at the 
        Department of Homeland Security in an orderly and well-managed 
        fashion.
           Our efforts to meet this significant challenge are well 
        under way. I have been meeting with the principals of the 
        agencies whose functions will be assimilated into BTS. We have 
        established several high-level working groups to address 
        functional alignment and organizational issues. There is still 
        much to be done, and I am working closely with the other Under 
        Secretaries to ensure smooth coordination of cross-directorate 
        issues.

        2)  Accomplishing significant reorganization of the Border and 
        Transportation Security agencies with appropriate approval and 
        oversight by the United States Congress.
           Congress recognized that in this consolidation there would 
        be areas of significant overlap in responsibilities and 
        capabilities. I have been working diligently with the agency 
        heads to prepare a plan for the consolidation of 
        responsibilities and capabilities into a logical organization 
        that makes sense. The guiding principal is to align like 
        functionalities and complimentary capabilities while ensuring 
        the continuity of operations, leading to increased national 
        security readiness.

        3)  Enhancing the human intelligence gathering and sharing 
        within the Border and Transportation Security agencies.
           As I have learned at DEA, human intelligence is often the 
        most valuable. We use the expression ``ground truth'' in 
        everyday conversation to mean something that we know is 
        unequivocally true. That expression comes from the intelligence 
        community, where ``ground truth'' truly validates other sources 
        of information. Obtaining this requires having agents in place 
        with experience, connectivity and support that ensures their 
        ability to obtain needed information and pass it securely to 
        operational commanders. We must also improve interagency 
        information-exchange connectivity to provide critical 
        information to the officers in the field when they needed. I am 
        engaged with the Directorate for IA/IP and all assimilating 
        agencies to ensure that BTS intelligence requirements are 
        understood and addressed appropriately.

        4)  Bringing together the inspection functions at the port of 
        entries within a unified chain of command structure, the result 
        being a more secure border.
           This is the key element under my guiding principal for BTS 
        reorganization. We must field a single unified presence at the 
        border, especially at the ports of entry. It must include unity 
        of command that can effectively plan unified, mutually 
        supporting operations and quickly respond to emergent 
        situations, redirecting resources as necessary.

        5)  Improving the technology used on the border and in the 
        transportation systems to enhance the flow of commerce while 
        detecting and detaining unlawful cargo.
           Improved technology and increased early knowledge of 
        incoming travelers and goods passing through our ports of entry 
        is the key to enhancing our capability to ``sort the wheat from 
        the chaff.'' We must improve our ability to identify terrorists 
        and their supporters and the chemicals, equipment and materials 
        intended to harm our nation and its people, while at that same 
        time we must minimize impacts to legitimate travelers and goods 
        that are the economic engine of our nation.

        6)  Developing visa issuance regulations, training and staffing 
        to reduce the abuse of our visa program by those wishing to 
        harm America.
           Congress has mandated a new and critical element for our 
        nation's security by requiring the development of improved 
        security procedures for visa issuance and implementation of 
        third party oversight of visa issuance in our nation's 
        embassies. We intend to develop a strong and effective program 
        to assure that only those with legitimate intent are issued 
        visas to enter our great nation. We will be working closely 
        with the Department of State to develop the policies, process 
        and procedures to effectively implement this mandate.

        7)  Communicating effectively with Congress and the American 
        public on the operations of the Border and Transportation 
        Security agencies and our ongoing efforts to fulfill the 
        mandates of Congress.
           Building on my close relationship with Congress, I fully 
        expect to establish frequent and open communications with 
        appropriate committees and staff to ensure their full 
        understanding of BTS-related issues and initiatives. It is my 
        belief that a well informed Congress makes the best decisions. 
        Likewise, frequent open communication with the American people 
        regarding BTS operations and how we are fulfilling our mandates 
        is the only way to build the public's trust in our ability to 
        secure the nation.

        8)  Reducing the problem areas of INS enforcement, including 
        making necessary adjustments to enforcement priorities and 
        improving management oversight and information technology.
           INS has been the focus of considerable criticism over the 
        past several years, and there is a vast library of reports 
        documenting the immigration enforcement problem areas. I have 
        been studying the INS enforcement programs and meeting with INS 
        senior leadership. Options will be considered on a better 
        alignment of responsibilities and missions. With the proper 
        alignment of resources and missions we can leverage the assets 
        we currently have to increase our operational effectiveness and 
        better meet our mandates. Information technology will play a 
        key role in improving our effectiveness requiring close 
        coordination with the Chief Information Officer and the 
        information analysis staff. I have already begun to communicate 
        my requirements to them and to work with them to develop 
        appropriate solutions. Another key player in this effort is the 
        Director of Shared Services, with whom I will work to ensure 
        proper coordination and exchange of information between BTS and 
        the Bureau of Citizenship and Immigration Services.

    I should add that as I oversee INS enforcement efforts, I will 
continue to emphasize the essential nature of immigration services. 
Homeland Security must be about protecting America--but it is an 
America that includes those who lawfully come to America to share our 
freedom, our future and the responsibility to defend this land. We must 
continue to welcome lawful immigrants even as we take steps to protect 
our borders from unlawful entries.
    Serving as Administrator of the DEA has provided me with valuable 
experience in managing a federal agency with a substantial budget, 
significant national and international presence and thousands of 
employees--experience which will contribute to my ability to achieve 
the goal of effectively integrating the agencies that fall under the 
BTS directorate. I have also gained experience by leading DEA in its 
new areas of responsibility as other federal law enforcement agencies 
have appropriately reduced their efforts in the counter-drug arena to 
focus more on counter-terrorism.
    During my tenure as Administrator of the DEA, we have contributed 
to protecting the homeland--namely, disrupting and dismantling some of 
the sources of terrorist funding by enforcing our drug laws against 
both foreign and domestic drug traffickers. My service at DEA, in 
Congress and as a U.S. Attorney has also provided tremendous experience 
in communicating and working closely with a variety of stakeholders on 
a regular basis. Should I become the new Under Secretary for Border and 
Transportation Security, I would certainly continue that practice, 
communicating regularly with federal, state and local government 
officials, community groups, transportation industry leaders, shippers 
and others who will be directly impacted by the operations of the BTS 
agencies. Certainly, of greatest importance, we must communicate 
frequently with the nearly 100,000 employees who will transfer into 
BTS, giving them information, support and motivation to continue their 
dedicated efforts in shielding this nation from terrorists.
    The employees who will transfer into BTS are hardworking men and 
women who perform critical tasks on a daily basis, and overall, do 
their jobs exceptionally well. By merging into the new Directorate of 
Border and Transportation Security, these public servants will not be 
asked to change what they do from day to day. Rather, their 
organizational structures will be refocused, consolidated and 
reorganized so that they can better perform the function of protecting 
the homeland.
    Employees of the Transportation Security Administration will 
continue to protect our nation's aviation system. U.S. Customs 
officials will continue to inspect cargo, both for revenue and security 
purposes. Immigration investigators and deportation officers will 
continue to target work-place violations and detain and remove illegal 
aliens. Animal and Plant Health Inspectors will continue to inspect 
incoming shipments for disease-carrying agricultural products. The 
Federal Law Enforcement Training Center will continue to train our 
federal law enforcement officers. Border Patrol agents will continue to 
prevent the unlawful entry of our country by illegal aliens, and the 
Federal Protective Service will continue to protect our federal 
buildings and courthouses. Although these employees carry out many 
varied responsibilities, they will now go to work each morning with the 
constant thought of ``what can I do today to protect America from those 
who hate us and wish us harm?''
    Mr. Chairman, I have always believed that the first duty of 
government is to protect and defend its citizens. A great portion of 
that responsibility falls on the new Department of Homeland Security. 
It is a duty I acknowledge, it is a duty I embrace, and it is a duty I 
fully dedicate myself to fulfilling. Should the Senate confirm my 
nomination, I am confident that, with the able leadership of the 
President, Governor Ridge and Secretary England, continued cooperation 
and guidance from Congress and the support of the fine men and women 
who will comprise this directorate, we will be able to provide greater 
security and peace of mind to the American people.
    Again, thank you for providing me the opportunity to appear before 
you today. I would be delighted to answer your questions at this time.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: William Asa Hutchinson.
    2. Position to which nominated: Under Secretary for Border and 
Transportation Security, Department of Homeland Security.
    3. Date of nomination: January 10, 2003.
    4. Address: (Information not released to the public).
    5. Date and place of birth: December 3, 1950 in Gravette, AR.
    6. Marital status: married to the former Susan Burrell.
    7. Names and ages of children: William Asa Hutchinson, III--born 
August 30, 1975; Sarah Hutchinson Wengel--born April 11, 1977; John 
Paul Hutchinson--born October 12, 1979; Young Seth Hutchinson--born 
April 11, 1983.
    8. Education: Springdale High School--diploma, awarded 1968; Bob 
Jones University, B.S. Accounting, awarded 1972; University of 
Arkansas--Fayetteville, J.D., awarded 1974.
    9. Employment record: March 1975-June 1976--Attorney, Law Firm of 
Jimm Hendren, Bentonville, AR; June 1976-February 1982--Principal, Asa 
Hutchinson Law Firm, Bentonville, AR; February 1982-November 1985, U.S. 
Attorney for the Western District of Arkansas, Rogers, AR; November 
1985-December 1986, Candidate for U.S. Senate; December 1986-December 
1996, Partner, Karr and Hutchinson, Ft. Smith, AR; January 1997-August 
2001, Member of Congress, U.S. House of Representatives, Washington, 
DC; August 2001-Present, Administrator, Drug Enforcement 
Administration, Washington, DC.
    10. Government experience: December 1982-November 1985, U.S. 
Attorney for the Western District of Arkansas, Rogers, AR; January 
1997-August 2001, Member of Congress, U.S. House of Representatives, 
Washington, DC; August 2001-Present, Administrator, Drug Enforcement 
Administration, Washington, DC.
    11. Business relationships: None.
    12. Memberships: Forth Smith Rotary Club, member, 1991-1996; 
Arkansas Bar Association, member, 1990-Present; Sebastian County Bar 
Association, member, 1990-1996; American Bar Association, member, 1990-
1996; Republican Party of Arkansas, Co-Chairman, Chairman, 1991-1995; 
Pre-Natal Clinic of Eastside Baptist Church, board member, 1989-1991; 
Int'l Association of Chiefs of Police, member, committee chair, 
executive board member, 2001-Present; Association of Former Members of 
Congress, member, 2002-Present.
    13. Political affiliations and activities:

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

        January 1996-August 2001--Member of Congress, U.S. House of 
        Representatives;
        1991-1995--Co-Chairman/Chairman, Republican Party of Arkansas;
        1990--Republican Candidate for Attorney General of Arkansas;
        1988--Chairman, Sebastian County, AR GOP;
        November 1985-December 1986--Republican Candidate for Senate;
        1979-1980--City Attorney, Bentonville, AR;
        1979-1980--Chairman, Benton County, AR GOP;
        1978--Republican Candidate for Prosecuting Attorney, Benton and 
        Carroll Counties, AR;
        1976--Republican Candidate for Justice of the Peace.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

        1993-1995--Member, Republican National Committee
        1992--Delegate, Republican National Convention
        1991-1995--Co-Chairman/Chairman, Republican Party of Arkansas
        1988--Delegate, Republican National Convention
        1979-1980--City Attorney, Bentonville, AR.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards:

        2002--Civic Star, presented by the Director General of the 
        Colombian National Police;

        2002--Orden Al Merito Civil Libertador Simon Bolivar, presented 
        by Bolivian President;

        1999--Honorary Degree, awarded by Bob Jones University, 
        Greenville, SC

        1997--Paul Hams Fellow, designated by Rotary International.

    15. Published writings: Attached is a list of articles, columns and 
publications I have authored. In addition to these writings, I also 
distributed a weekly electronic newsletter to over 7,000 constituents 
while I was serving in Congress, and, as Administrator, I distributed a 
bi-monthly internal newsletter to the employees of the Drug Enforcement 
Administration.

Articles and Publications by Asa Hutchinson
    ``Congress Can Reform--Honest'' (with Rep. Tom Allen), Washington 
Post, 4 August 1997.
    ``A Trial Without Evidence,'' New York Times, 31 December 1998.
    ``The Campaign Integrity Act--A Product of Bipartisanship,'' 
Northwest Arkansas Times, 21 May 1999.
    ``A Realistic Approach to Passing Campaign Finance Reform,'' Roll 
Call, 31 May 1999.
    ``Let's Be Realistic,'' USA Today, 1 June 1999.
    ``Youth Violence Must Be Curbed,'' Roll Call, 21 June 1999.
    ``Did the Senate Trial Satisfy the Constitution and the Demands of 
Justice?,'' Hofstra Law Review, Winter 1999.
    ``Racial Profiling Endangers Justice,'' Roll Call, 7 February 2000.
    ``Commission Would Encourage E-Commerce While Protecting Privacy,'' 
KPMG E-Commerce Update, May 2000.
    ``Eyewitnesses Under Attack,'' New York Times, 22 June 2000.
    ``Commission is First Step to Privacy'' (with Rep. Jim Moran), The 
Hill, July 2000.
    ``Prescription Drug Coverage--Affordable, Flexible, Voluntary,'' 
Northwest Arkansas Times, 24 September 2000.
     ``Let's Establish a National Commission on Privacy,'' Oncology 
Times, January 2001.
    ``Drug Treatment Needs Accountability,'' The Columbus Post-
Dispatch, 14 May 2002
    ``Punting on the Third Down'' (excerpts), The Executive Speaker, 
July 2002
    ``Santa Cruz Drug Raid,'' New York Times, 28 September 2002
    ``Drug Legalization Doesn't Work,'' Washington Post, 9 October 2002
    ``Drugs Are To Help, Not Harm,'' USA Today, 14 November 2002
    Domestic Monitor Program, 1999-2000 (with Steve Casteel), November 
2002
Publications at DEA that went out under Mr. Hutchinson's name:
    Ecstasy and Predatory Drugs, December 2002
    Speaking Out Against Drug Legalization, November 2002
    Public Affairs: A Strategic Communications Plan for the Field, 
November 2002
    Student Drug Testing: What You Should Know, October 2002
    DEA World (hardcover edition), September 2001
    DEA Update (external c-newsletter), September 18 and November 13, 
2002

    16. Speeches: In my various official capacities, I have delivered 
over 1,000 speeches to various groups from virtually every civic club 
in Arkansas to Republican groups to League of Women Voters to community 
picnics to international conferences. Previous to my tenure as DEA 
Administrator, I did not maintain a list of such speeches. I have 
compiled and attached a partial list of speeches given in recent years 
as well as a detailed list from my seventeen months at the DEA.
Speeches Delivered by Asa Hutchinson
        January 1997-August 2001
        136th Anniversary of the Battle of Pea Ridge
        1999 Summer Congressional Intern Lecture Series
        1st Baptist Church
        7th Annual Spring Trade Expo-Hosted by AR Hospitality Assn.
        AARP
        AARP/VOTE Social Security Forum
        Acxiom Luncheon/Roundtable Discussion
        AG Edwards
        Alltel ``Call to Protect''
        Alma Chamber of Commerce
        Alma Middle School
        American Advertising Federation
        American College of Trial Lawyers
        American Consulting Engineers
        American Criminal Law Review Debate
        American Family Assn.
        American Federation of Government Employees, AFL-CIO
        American Heart Assn.
        American Jewish Committee
        American Legion and American Legion Auxiliary
        American Legion Mid-Winter Conference
        American Rental Assn.
        American Society of Assn. Executives
        American Studies Institute
        American Teleservices Assn.
        American Wood Preservers Institute
        Andrews Air Force Base Retirement Ceremony
        Anti-Defamation League
        AR Area Agency on Aging
        AR Assn. of Student Financial Aid Conference3
        AR Associated Press Managing Editors
        AR Electric Cooperatives, Inc.
        AR History Day
        AR Humanities Council
        AR HVACR
        AR Policy Council
        AR Rural Electric Coops
        AR State Dental Assn.
        AR Women Prison Inmates
        Arizona Caucus B'fast, RNC Nat'l Convention
        Arkansans for a Drug Free Youth
        AR Airport Operators Assn.
        AR Assn, of United Way
        AR Builders and Contractors State Convention
        AR Cattlemen's Assn.
        AR Chamber of Commerce
        AR Chapter of American Institute of Architects
        AR Credit Union League
        AR Environmental Federation Annual Water Seminar
        AR Head Start Assn Annual Training Conference
        AR Hospital Assn.
        AR Law Enforcement Training Academy
        AR Municipal League
        AR Osteopathic Assn.
        AR Procurement Assistance Center
        AR Professional Bailbond Licensing
        AR Round table of Family Council
        AR Rural Development Conference
        AR School for Math and Sciences Commencement
        AR State GOP Convention
        Arkansas State University-Mountain Home
        Army War College
        Associated Equipment Distributors
        Assn. of American Railroads
        Barling Jr. Police Academy Graduation
        Baxter County, AR Lincoln Day Dinner
        Baxter Healthcare Arkansas Plan Managers
        Della Vista Community Church Men's Group
        Bella Vista Memorial Day Program
        Bella Vista-Bentonville Assn, Homebuilders Assn.
        Bellview Elementary School
        Benton County Republican Women
        Benton County Young Republicans
        Bentonville Chamber of Commerce
        Bentonville/Bella Vista Chamber of Commerce
        Bevery Enterprises Open House
        BIPAC Barometer B'fast
        Blacks in Gov't Legislative Policy Conference
        Bob Jones University Convocation
        Boone County Lincoln Day Dinner
        Boone County Veterans Day Program
        Booneville Downtown Revitalization Committee
        Boys & Girls Club of Paris, AR
        Boys State
        Brookings Institute
        Bull Shoals Rotary
        Bush Caucus Event
        Butterfield Train Grounubreaking Ceremony
        Candidate Introduction for Polk, Scott, Sevier and Montgomery 
        Co
        Capitol Hill e-Gov't Seminar
        Carlton Club
        Casualty and Property Group of DC
        Carroll County Lincoln Day Dinner
        Catholic High School Foundation
        Center for the Study of Taxation
        Central AR Homeschool Debate Team
        Chapel River Valley Christian School
        Charles AR Chamber of Commerce
        AR Farm Bureau Federation
        AR Federation of Republican Women
        Citizens Against Drugs Membership Drive Kick-Off
        City Vision's Missions and Ministry Exposition
        Civil Air Patrol
        Coal Miners Memorial Dedication
        Coalition Against Insurance Fraud
        Code Adam Event
        Colorado Bar Assn.
        Concerned Women for America
        Congressional Institute
        Congressional Operations Seminar
        Congressional Prayer B'fast
        Conservative PAC Conference
        County Judges Assn. of AR
        Crawford County Lincoln Day Dinner
        Dairy Compacts Seminar
        Debate Students Forum
        Dedication of FSM VA Outpatient Clinic
        Deposit Guarantee of Ft. Smith
        Digital Dialogue Forum
        Disable American Veterans State Convention
        Domestic Violence Forum
        Du Page County, IL Lincoln Day Dinner
        Elmdale Baptist Church
        Empowerment Through Political Action Program
        Energy Council and Interstate Oil and Gas Compact
        Environmental Law Seminar of AR/OK Barr Assn.
        Evangel Temple
        FAITH Home Education Assn. Commencement
        Faith-Based Initiatives Panel
        Family Research Council
        Farmington Christmas Tree Lighting Ceremony
        Fayetteville Chamber of Commerce
        Fayetteville Lyons Club
        Fayetteville Rotary Club
        Federal Executive Assn. of Northwest AR
        First Southern Baptist Church
        Former U.S. Attorneys
        Fort Smith Adult Education
        Fort Smith Chamber of Commerce
        Fort Smith Downtown Kiwanis
        Fort Smith Rotary Club
        Fort Smith Volunteer of the Year Banquet
        Franklin County Lincoln Day Dinner
        French War Veterans Medal Awards Ceremony
        Fulbright School of Public Affairs
        Gardner Jr. High School
        Gentry Community Drug Forum
        Georgetown Law School
        Christian Science Monitor
        Cinco de May Events
        Gravette High School Commencement
        GWU College Republicans
        Harding University Distinguished Lecture Series
        Harris County Republican Party Fundraiser
        Harrison Kiwanis
        Harrison Lyons Club
        Harrison Rotary Club
        Harvard Law School
        Harvard Law School Republicans
        Heritage Baptist Church
        Heritage Foundation
        High School Students from Bill McCollum's District
        Hugh OBrian Youth Leadership Seminar
        Hutchinson Realty
        Independent Bankers Assn.
        INS Forum
        INS Naturalization Ceremony
        INS Office Opening
        Int'l Mass Retail Assn.
        Johnson County Lincoln Day Dinner
        Junior Statesmen Foundation
        Ladies Auxiliary Military Order of the Purple Heart
        Lao Veterans Awards Ceremony
        Lexington. KY Lincoln Day Dinner
        Madison County Lincoln Day Dinner
        Manufacturing Exec. Assn. of Western AR and Eastern OK
        Martin Luther King Observance Breakfast
        Masonic Lodge Spaghetti Supper
        Memory Walk 1997
        Millennium Days Concert (Trout Fishing in America)
        MO Federation of Republican Woman Lincoln Day Dinner
        Montgomery County Lincoln Day Dinner
        Mountain Home Lincoln Day Dinner
        Mountain Home Junior High School
        Multicultural Center Recognition Luncheon
        Nat'l Assn. of Retired Federal Employees
        Nat'l Assn. of State Treasurers
        Nat'l Chamber Foundation
        Nat'l League of Postmasters
        Nat'l Assn. of Asst. U.S. Attorneys
        Nat'l Assn of Broadcasters Dinner
        Nat'l Assn. of Professional Insurance Agents
        Nat'l Commission on Federal Election Reform Panel
        Nat'l Community Prosecution Conference
        Nat'l Historic Site Dedication/Opening
        Natl League of Cities
        Nat'l Narcotic Officers' Assn. Coalition
        Nat'l Press Club Forum
        Global Privacy Summit
        Grace Community Church Grand Opening
        Graduate Student Assn. of UALR Panel
        Grand Opening of Unity Adult Care Center
        Noon Exchange Club of Fort Smith
        North Arkansas Community Technical College
        Northwest Academy Graduation
        Northwest Arkansas Christian Home Educators Assn.
        Northwest Arkansas Early Childhood Assn. Forum
        Northwest Arkansas Human Resources Council
        Northwest Arkansas Life Underwriters
        Northwest Arkansas Regional Airport Dedication
        NRCC Dine Around
        NRCC Tax Reform Workshop
        Oklahoma Republicans Convention
        Opal Financial Group
        Opening of Gravette Upper Elementary
        Ouachita Baptist University
        Owens, Illinois PAC
        Ozark Rotary Club
        Phi Theta Kappa
        Pinehurst NC Lincoln Day Dinner
        Pleasant Street Church of Christ
        Political Animals of Little Rock
        Polk County Republicans
        Pope County Lincoln Day Dinner
        Port City Optimists Club
        Princeton Model Congress
        Professional Insurance Agents
        Promise Keepers
        Prosecuting Attorney Conference
        Quinnipeac Law School
        Ramsey Jr. High
        Regent University
        Republican Men of Della Vista
        Republican Women's Federal Forum
        River Valley Christian School
        RNC Youth Convention
        Rogers Early Risers Rotary
        Rogers Rotary Club
        Rogers-Lowell Chamber of Commerce Banquet
        Rolar President-Elect Training Conference
        Russellville Lyons Club
        Russellville Rotary Club
        Sebastian County Bar Assn.
        Sebastian County Lincoln Day Dinner
        Seminar for Execs on Legislation
        SERTOMA Club
        Sevier County, TN Lincoln Day Dinner
        Siloam Springs Chamber Banquet
        Nat'l Stone Assn. Annual Conference
        Nat'l Student Govt
        Nat'l Student Leadership Forum
        New Jersey Governor's Council Conference
        Subiaco Academy Graduation
        Sutton Elementary School
        Teen Age Republicans
        Society of Professional Journalists
        Southern Baptist Convention Student Leadership
        Southern Republican Leadership Conference
        Springdale High School
        Springdale Noon Lyons
        Springdale Rotary



        Date                  Site                     Event

                          2001 Speech Schedule
------------------------------------------------------------------------
Aug 1                 Los Angeles, CA      DARE Conference
Aug 6                 Bellevue, WA         Methamphetamine Summit
Aug 22                Chicago, IL          DEA Regional Club Drug
                                            Conference
Aug 23                Sacramento, CA       HAPCOA
Aug 30                Denver, CO           Operation Green Clover Press
                                            Conference
Sep 5                 Coeur d'Alene, ID    Pacific OCDETF
Sep 10                Albuquerque, NM      Intro & Debate w/Gov. Gary
                                            Johnson
Sep 24                Sturbridge, MA       New England HIDTA Heroin
                                            Conference
Sep 26                St. Louis, MO        Operation Serrano Press
                                            Conference
Sep 28                Washington, DC       National Foundation for Women
                                            Legislators
Oct 5                 Arlington, VA        Intelligence Graduation #51
Oct 9                 Washington, DC       National Crime Prevention
                                            Council
Oct 11                Arlington, VA        Red Ribbon Rally
Oct 12                Youngstown, OH       Drug Court Graduation
                                            Ceremony
Oct 13                Washington, DC       National Law Enforcement
                                            Officers Memorial Fund
Oct 16                Arlington, VA        Length-of-Service Ceremony
Oct 20                Ft. Lauderdale, FL   AFFNA keynote
Oct 22                West Palm Beach, FL  INEOA keynote
Oct 23                Washington, DC       Shaw Jr. High Red Ribbon
                                            Ceremony
Oct 27                Toronto, CAN         IACP Major Cities Chiefs
Oct 29                Toronto, CAN         IACP 1st General Assembly
Nov 7                 Quantico, VA         Harvard Leadership Strategy
Nov 14                Arlington, VA        PIO Meeting
Nov 15                New Haven, CT        Gov. Johnson Debate at Yale
                                            Law School
Nov 19                Quantico, VA         STAR Conference
Dec 1                 Ft. Lauderdale, FL   National District Attorneys
                                            Assn.
Dec 3                 Arlington, VA        American University students
Dec 4                 Arlington, VA        Museum symposium on narco-
                                            terrorism
Dec 6                 Orlando, FL          Florida Drug Czar Drug
                                            Prevention Conference
Dec 6                 Washington, DC       National HIDTA Conference
Dec 7                 Washington, DC       Youth Leadership Council-
                                            Young Leaders
Dec 17                Washington, DC       Wright Brothers' 98th
                                            Anniversary Celebration
------------------------------------------------------------------------
                          2002 Speech Schedule
------------------------------------------------------------------------
Jan 9                 Fayetteville, AR     Washington County Bar Assn
Jan 10                Arlington, VA        Operation Mountain Express
                                            III
Jan 17                Quantico, VA         Graduation: BA-144
Jan 24                Reno, NV             Juvenile and Family Drug
                                            Court Training
Jan 29                Dallas, TX           Tn-Regional OCDETF $
                                            Laundering
Jan 31                Washington, DC       Kingpin Press Conference
Feb 1                 Arlington, VA        Conservative PAC
Feb 12                San Francisco, CA    Commonwealth Club of
                                            California
Feb 25                Dover, DE            Dedication of new office
Feb 26                Arlington, VA        Black History Month
Feb 26                Washington, DC       Working Group on
                                            Prosecutorial Relations
Feb 27                New Orleans, LA      Admin Officers Conference
Mar 2                 Hollywood, FL        National Comprehensive Cancer
                                            Network
Mar 5                 Santa Cruz, BO       IDEC
Mar 13                Arlington, VA        Videotape U of Arkansas
Mar 14                Baltimore, MD        American Pain Society
Mar 14                Washington, DC       Counterdrug Intelligence
                                            Coordinating Gr.
Mar 15                Alexandria, VA       IACP State &Provincial Police
Mar 18                Washington, DC       National Foundation for Women
                                            Legislators
Mar 18                Washington, DC       FARC indictments press
                                            conference
Mar 18                Rockville, MD        Barnes & Noble Prescrip Drug
                                            Event
Mar 19                Arlington, VA        AG's Drug Strategy Press
                                            Conference
Mar 20                Washington, DC       Regent University grad
                                            students
Mar 20                Washington, DC       Meth legislation statement
Mar 22                Washington, DC       State Attorneys General
                                            meeting
Mar 22                Washington, DC       Foreign Press briefing
Apr 2                 Washington, DC       Heritage Foundation
Apr 3                 Orlando, FL          Florida State-wide Drug Court
                                            Training
Apr 5                 Washington, DC       Nat'l Narcotics Officers
                                            Assoc Coalition
Apr 7                 Nashville, TN        SAC Conference
Apr 10                Houston, TX          Rice University keynote
Apr 12                Arlington, VA        Chemist Graduation
Apr 16                San Antonio, TX      Texas Police Chiefs
                                            Association
Apr 17                Arlington, VA        EEO Mediation Training
                                            Conference
Apr 19                Pittsburgh, PA       Operation Family Store w/AG
Apr 20                Little Rock, AR      Right to Life Dinner
Apr 22                Charleston, SC       IDEA Drug Summit
Apr 23                New York, NY         Fordham University Law School
                                            Debate
Apr 25                Indianapolis, IN     Indiana Meth Summit
Apr 26                Portland, OR         Anti-drug rally at school
Apr 30                Washington, DC       University of Cal students
Apr 30                Quantico, VA         Drug Unit Commanders Academy
May 2                 New York, NY         AFFNA luncheon
May 2                 Brooklyn, NY         Graduation: Drug Treatment
                                            Alt. To Prison
May 7                 Alexandria, VA       IACP NDDC Meeting
May 10                Columbus, OH         Ohio Drug Court Professionals
May 13                Arlington, VA        Southern Miss students
                                            meeting
May 14                Queens, NY           School-Based Drug & Alcohol
                                            Conference
May 15                Washington, DC       American Furniture
                                            Manufacturers Assoc
May 15                Denver, CO           ASAC Conference
May 16                Gatlinburg, TN       Gatlinburg Law Enforcement
                                            Conf
May 17                Arlington, VA        DEA Memorial Day Service
May 17                Quantico, VA         BA 145 Graduation
May 21                Savannah, GA         MET Conference
May 22                Arlington, VA        Hunter College High School
                                            students
May 22                Arlington, VA        Asian Pacific American Month
May 23                Arlington, VA        NFWL National Press
                                            Conference
May 24                Arlington, VA        Deputy Swearing-In Ceremony
May 30                Little Rock, AR      Arkansas Meth Summit
May 31                Blue Springs, MO     Missouri students and
                                            teachers
June 5                Louisville, KY       Meth and OxyContin Summit
June 5                Lexington, KY        Fayette Drug Court
June 7                Quantico, VA         DUCA school
June 11               Sun Valley, ID       Major Cities Chiefs Annual
                                            Conference
June 11               Washington, DC       Bolivian Law Enforcement
                                            Honors AH
June 13               Washington, DC       Nat'l Assoc of Drug Court
                                            Professionals
June 16               London, GB           John Jay College keynote
                                            speaker
June 25               Tulsa, OK            National Sheriffs Association
June 26               Washington, DC       AG's Summer Intern Lecture
                                            Series
June 26               Washington, DC       CYLC
June 26               Alexandria, VA       DEA Security Programs
                                            Conference
June 27               New Orleans, LA      Demand Reduction Conference
July 4                Alexandria, VA       Leadership Institute
July 8                Flagstaff, AZ        LE Exploring Conference
July 10               Hollywood, CA        Entertainment Industries
July 11               Reno, NV             National Elks 2002 Convention
July 12               Arlington, VA        National Teenage Republicans
July 15               Detroit, MI          NABNA
July 16               Washington, DC       Junior Statesmen Foundation
July 16               Washington, DC       PRISM awards
July 17               Allentown, PA        IDEA Drug Summit
July 18               Little Rock, AR      American Academy of Family
                                            Physicians
July 18               Ft. Worth, TX        Nati. Meth Chemicals
                                            Initiative
July 19               Bentonville, AR      Wal-Mart Opening Schedule II
                                            Pharms
July 22               Tampa, FL            NOBLE Conference
July 24               Naperville, IL       NDEOA Conference
July 25               Oklahoma City, OK    Oklahoma Meth Summit
July 29               Portsmouth, VA       IDEA Summit
July 30               Washington, DC       OCDETF National Conference
July 30               Arlington, VA        CFC Awards Ceremony
July 30               Los Angeles, CA      Orange County Meth Conference
Aug 7                 Arlington, VA        U of Ark Social Work
                                            Videotaping
Aug 11                Pentagon City, VA    VA Assoc of Chiefs of Police
Aug 14                Washington, DC       Faith and Community-Based
                                            Orgs
Aug 14                Washington, DC       Washington Rotary Club
Aug 15                Arlington, VA        Young Entrepreneurs'
                                            Organization
Aug 15                Washington, DC       Women in Fed Law Enforcement
Aug 27                Honolulu, HI         Hawaii Meth Summit
Aug 28                Los Angeles, CA      Compton Drug Court Grad
Sep 3                 Arlington, VA        Narco-Terror Exhibit
Sep 5                 Chicago, IL          PDFA speak at luncheon
Sep 6                 Arlington, VA        Taped message for Tallahassee
                                            event
Sep 6                 Arlington, VA        Assoc. of Former US Attorneys
Sep 12                Washington, DC       Cong'l Black Caucus Drug
                                            Forum
Sep 13                Madison, WI          Dane County Drug Court
Sep 13                Madison, WI          Wisconsin Committee Meeting
Sep 16                Waco, TX             Baylor University Lecture
Sep 18                Sioux City, IA       Multi-State Meth Summit
Sep 19                Arlington, VA        Operation Webslinger Press
                                            Conference
Sep 20                Quantico, VA         BIRS Graduation
Sep 20                Arlington, VA        DEA Awards Ceremony
Sep 21                Washington, DC       Pain Physicians
Sep 23                Gainesville, VA      Open Meredith Thompson golf
                                            tourn
Sep 24                Washington, DC       Carlos Castano Indictment
Sept 25               Ft. Collins, CO      Rocky Mountain Club Drugs
                                            conf
Sep 26                Syracuse. NY         Syracuse University College
                                            of Law
Sep 30                New York, NY         US Attorneys National
                                            Conference
Oct 1                 Milwaukee, WI        Wisconsin Meth/club drugs
                                            Summit
Oct 2                 Columbus, OH         AG's law enforcement
                                            conference
Oct 2                 Columbus, OH         Dublin High School students
Oct 3                 Arlington, VA        INEOA taping
Oct 7                 Minneapolis, MN      IACP Annual Conference
Oct 14                Greenbrier, WV       Sthn Newspaper Annual
                                            Convention
Oct 15                Little Rock, AR      Rotary Club of Little Rock
Oct 15                Fayetteville, AR     Fayetteville Drug Court
Oct 16                Arlington, VA        Red Ribbon
Oct 17                Wichita, KS          Wichita Crime Commission
Oct 21                Pensacola, FL        Red Ribbon w/Gov Bush
Oct 22                Tallahassee, FL      Tallahassee Town Hall
Oct 28                Morristown, NJ       Drug Summit
Oct 28                Rockaway, NJ         Morris Knolls High School
Oct 30                New York, NY         NYU Law School
Oct 30                New York, NY         NY Special Prosecutors Office
Oct 30                New York, NY         Hispanic Heritage, NY
                                            Division
Nov 1                 Arlington, VA        CFC Kick-off
Nov 4                 Marietta, GA         Cobb County Chamber of
                                            Commerce
Nov 5                 Arlington, VA        DRC Training
Nov 6                 Washington, DC       AUC arrests news conference
Nov 7                 Cambridge, MA        Harvard University
Nov 7                 Boston, MA           High School students
Nov 12                Chicago, IL          Federalist Society U of
                                            Chicago
Nov 13                Washington, DC       FARC indictments
Nov 14                Washington, DC       Bensinger Dupont Associates
Nov 15                Quantico, VA         BA 147 Graduation
Nov 18                Springfield, MO      SW Missouri State University
Nov 18                Springfield, MO      Springfield IDEA Summit
Nov 20                Arlington, VA        Length of Service Ceremony
Nov 22                San Diego, CA        NFWL Annual Meeting
Nov 22                San Diego, CA        Operation X-Out Press
                                            Conference
Nov 22                San Diego, CA        Town Hall Ecstasy/Predatory
                                            Drugs
Dec 2                 Washington, DC       Advisory Cmte of US Attorneys
Dec 3                 Charlotte, NC        Natl Assoc Drug Diversion mv.
                                            Conference
Dec 10                Washington, DC       Buprenorphine Press
                                            Conference
Dec 11                Mobile, AL           IDEA Summit
Dec 12                Washington, DC       HIDTA
Dec 12                Washington, DC       Nat'l Air Transport
                                            Association
Dec 19                Quantico, VA         BA 148 Graduation
------------------------------------------------------------------------
                              2003 Speeches
------------------------------------------------------------------------
Jan 9                 Washington, DC       Republican Women's Forum
Jan 14                Baltimore, MD        Heritage Foundation New
                                            Members Retreat
Jan 17                Quantico, VA         BA 149 Graduation



    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? While I could not specifically outline the President's 
reasoning for this appointment, I do believe my broad experience in law 
enforcement and interagency cooperation and my service in Congress are 
important factors that he likely considered.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? While 
serving as U.S. Attorney, I worked on immigration, border and 
enforcement policy by virtue of my work on the Attorney General's 
Subcommittee on Immigration. I also worked with U.S. Customs, Border 
Patrol, INS enforcement and other federal law enforcement agencies. 
When elected to Congress, I served on the Select Committee on 
Intelligence, the Crime Subcommittee of the House Committee on the 
Judiciary and the House Transportation and Infrastructure Committee. In 
these committees, I exercised oversight responsibility on many federal 
law enforcement agencies, intelligence communities and the 
transportation sector. Finally, as Administrator of the Drug 
Enforcement Administration (DEA), I oversaw drug enforcement operations 
along the U.S. borders. The DEA works extensively with other federal 
agencies along with state and local law enforcement. This interagency 
experience is critical as Homeland Security is created and the 
participating agencies are adopted.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None, except I have a joint promissory note to 
First National Bank of Ft. Smith, Arkansas with my former law partner. 
The note was a business loan, and the current balance for my share is 
$12,750.
    2. Indicate any investments, obligations, liabilities, or other 
relationships, which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public. I have served as a 
Member of Congress, Administrator of the DEA and previously as Chairman 
of the Republican Party of Arkansas, and in each of these positions I 
commented and worked on legislation.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. I will obtain opinions and direction from the Office of 
Government Ethics. In addition, I will evaluate the potential from my 
own base of experience and ethics.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? Yes. KBCV Radio, owned by Rocky Haven 
Investments, was the subject of administrative proceedings before the 
Federal Communication Commission. This was in 1982, and I was principal 
owner.
    In addition, there was civil litigation involving the bankruptcy of 
the ultimate purchase of the station in the 1990 time frame.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. I 
will endeavor to learn from Senate and House Members and staff the 
intent of Congress as well as review the legislative record. Any 
proposed regulations arising from Border and Transportation Security 
(BTS) agencies would be reviewed by the policy office of BTS to assure 
compliance with the intent of relevant legislation.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. As a new agency, the 
Directorate of Border and Transportation Security will carry out its 
mission based upon the mandate of its authorizing legislation and that 
of the agencies of which it is comprised. The mission is to protect our 
borders and transportation systems without unnecessarily impeding the 
flow of lawful commerce.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated? My 
experience in the following areas will be helpful in my 
responsibilities at Homeland Security.
    (a) U.S. Attorney--I worked closely with all of the federal law 
enforcement agencies that will be a part of the Border and 
Transportation Directorate. From U.S. Customs to INS to Federal 
Protective Service, I became knowledgeable about each agency's 
priorities, administrative structure and areas of overlapping 
jurisdiction.
    (b) Member of Congress--I served on the Judiciary Committee and was 
active on the Crime Subcommittee. I gained an understanding of border 
security, immigration issues and federal law enforcement. As a member 
of the Select Committee on Intelligence, I saw first-hand the work of 
our intelligence agencies. As a member of the Transportation and 
Infrastructure Committee, I exercised oversight of all our 
transportation systems and the important work of the U.S. Coast Guard.
    In addition, I traveled periodically, which allowed me to engage 
our foreign counterparts on trade, immigration and security issues.
    (c) Administrator of the DEA--In this capacity I have worked with 
law enforcement agencies from the state and local level to the 
principal federal and international enforcement organizations. I have 
traveled to Mexico, examined the borders, transportation systems and 
ports. I have worked on international partnerships to further drug 
enforcement and security objectives.
    The interagency task forces such JIATF East and West have DEA 
participation, and the model of cooperation from the task forces is an 
example of what can be accomplished at Homeland Security through that 
type of cooperation and integration of various agencies.
    All of these professional experiences will be important to my new 
responsibilities at the Department of Homeland Security.
    2. Why do you wish to serve in the position for which you have been 
nominated? I wish to serve in this new department because it will help 
ensure that America is more secure. Public service is about challenge 
and responsibility. Whoever holds this position at the Department of 
Homeland Security will confront enormous obstacles, but the opportunity 
to protect the United States is sufficient reason to accept the 
assignment.
    3. What goals have you established for your first two years in this 
position, if confirmed. My goals are really set forth in the 
legislation, which are to protect the borders and transportation 
systems from terrorist attack while, at the same time, ensuring the 
orderly flow of legitimate commerce. In addition, I will work with 
Governor Ridge and my colleagues to develop specific and measurable 
goals for the BTS Directorate. From a personal standpoint, I would 
hope:

        a.) To bring the incorporated agencies on board at the 
        Department of Homeland Security in an orderly and well-managed 
        fashion.

        b.) To accomplish significant reorganization of the Border and 
        Transportation Security agencies with appropriate approval and 
        oversight by the United States Congress.

        c.) To work with the Homeland Security Intelligence Analysis 
        and Infrastructure Protection directorate to enhance the human 
        intelligence gathering and sharing within the Border and 
        Transportation Security agencies.

        d.) To bring together the inspection functions at the port of 
        entries within a unified chain of command structure. The result 
        being a more secure border.

        e.) To improve the technology used on the border and in the 
        transportation systems to enhance the flow of commerce while 
        detecting and detaining unlawful cargo.

        f.) To develop visa issuance regulations, training and staffing 
        to reduce the abuse of our visa program by those wishing to 
        harm America.

        g.) To communicate effectively with Congress and the American 
        public on the operations of the Border and Transportation 
        Security agencies and our ongoing efforts to fulfill the 
        mandates of Congress.

        h.) To reduce the problem areas of INS enforcement. This would 
        include making necessary adjustments to enforcement priorities, 
        and improving management oversight and information technology.

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I don't know that I lack any skills that 
are necessary, but I do need to enhance my expertise in specific areas, 
including the revenue and trade aspects of U.S. Customs, immigration 
policies and specific threats from chemical, biological weapons. I am 
taking steps to increase the knowledge base in these areas by briefings 
and meetings with experts. In addition, I intend to be in the field as 
often as possible to personally observe operations.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. My 
view on the role of government is that it should be a limited one. The 
role of government should be limited to circumstances in which the 
citizens collectively agree that a service is first, necessary; and 
second, can be best performed by the state rather than the private 
sector. The clearest examples are defense, national security, policy 
functions and homeland security. Other examples include health and 
safety inspections, transportation systems and social safety net 
programs such as unemployment assistance, social security and Medicaid.
    The private sector should be the first responders for most of 
society's problems. For example, voluntary and charitable organizations 
can effectively meet many needs of society. The government should be a 
remedy that is utilized when the private sector is unable or unwilling 
to take on a particular problem of society.
    Determining when a government program is no longer necessary should 
be a matter of periodic and regular review. It may be that the 
circumstances have changed, and the private sector is able or willing 
to meet a need, or it could be that a need no longer exists. The 
government may also be incapable of meeting an existing need because of 
its inherent insufficiencies. An example could be concern that 
adolescents do not get sufficient exercise--the government is not 
likely the correct institution to address that problem.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. Since this 
is a new department, the current mission is defined by the authorizing 
legislation. It is to coordinate the functions of the participating 
agencies. The major programs and operational objectives are reflected 
in the operations of the BTS agencies.
    The major mission of the Transportation Security Administration is 
to protect the transportation systems of our nation. U.S. Customs is to 
inspect cargo coming in the United States, both for revenue and 
security purposes. As part of the mission, Customs is currently engaged 
in counter-drug enforcement, money laundering investigations and other 
contraband-type cases. Immigration and Naturalization Service 
enforcement efforts range from immigration fraud investigations to 
work-place violations to removal enforcement efforts. The inspection 
services of INS are focused on people entering the United States in 
contrast to cargo. Animal and Plant Health Inspection Service inspects 
for disease-carrying agricultural products. The Federal Law Enforcement 
Training Center is responsible for coordinating the training of our 
federal law enforcement officers, ranging from Customs to Border Patrol 
agents. The Federal Protective Service is responsible for the security 
of our federal buildings and courthouses.
    The objective of the Border and Transportation Security directorate 
is to coordinate these functions to more effectively protect America.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. The primary mission of BTS is unlikely to change. However, BTS 
must adjust its strategy and allocation of resources to counter 
emerging security threats. BTS will have to be flexible and adopt new 
strategies and approaches as those who would threaten American security 
change their tactics and adopt new approaches.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? The primary outside force would probably be 
the speed with which our enemies can adopt new tactics. The top three 
challenges BTS faces are integrating and streamlining its components, 
maintaining the quality of the existing work of its components during 
the transition, and putting systems and procedures in place flexible 
enough to meet new threats.
    9. In further reference to question number six, what factors in 
your opinion have kept the department/agency from achieving its 
missions over the past several years? BTS has not existed in its 
current form prior to enactment of the Homeland Security Act. However, 
some of the factors affecting the performance of its individual 
components in the Homeland Security arena, including TSA, INS, Border 
Patrol, US Customs, APHIS and Federal Protective Service, include the 
absence of a homeland-focused mission, inadequate information sharing, 
and redundant duties.
    10. Who are the stakeholders in the work of this agency? Congress; 
employees of the BTS agencies and labor organizations representing 
those employees; federal, state, county, and local government entities; 
state and local community groups and law enforcement agencies; 
immigrant advocacy groups; cargo container shippers; air freight 
integrators and forwarders; commercial and general aviation air 
carriers; airports; port and transit operators; rail and bus companies; 
the federal judiciary and tenants of federal buildings; distributors 
and retailers of goods; travelers.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? 
Communicating and consulting on a regular basis with these stakeholders 
for their ideas as BTS components implement existing policies and 
develop new policies.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls? 
Although the legislation creating DHS specifically vests the 
Undersecretary for Management with specific responsibility for the 
budget, appropriations, expenditures of funds, accounting and finance 
for the Department, I would work very closely with the Under Secretary 
to develop the budget submission, performance measures and 
accountability structures for BTS. My goal would be to ensure that 
program offices within BTS agencies are managing their funds 
appropriately and making wise use of taxpayer dollars, and I would 
engage in regular review of agency expenditures in order to ensure that 
that goal is being met.
    (b) What experience do you have in managing a large organization? I 
have been Administrator of the Drug Enforcement Administration for the 
last 18 months, an organization with nearly 10,000 employees, a budget 
of nearly $1.7 Billion, and offices throughout the entire United States 
and in 57 countries.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Identifying and reporting on BTS agency progress 
will serve a few very worthwhile functions. First, it would require 
that I take regular ``temperature checks'' to make sure that agencies 
within BTS jurisdiction are, in fact, doing the work they are charged 
with, and doing so in an efficient and effective fashion. Should any 
deficiencies be identified in this process, the reporting requirement 
would afford the affected agency the opportunity to take corrective 
action before a small problem becomes a large one. Second, regular 
reporting would assist Congressional committees of jurisdiction in 
performing their oversight functions, enabling those committees to 
better understand the operations of each agency within BTS, and take 
appropriate action--be it through oversight hearings, meetings, or 
legislation--to assist BTS in correcting any deficiencies found.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Congress should seek to determine why the agency 
failed to meet any of its goals, particularly whether or not any 
factors outside the agency's control contributed to the failure, taking 
appropriate corrective action in response. That action could include 
working with agency officials in a cooperative fashion to identify 
internal solutions to more minor failures, or legislatively shifting 
priorities or resource allocations. Steps could also include 
eliminating, streamlining activities, privatizing or consolidating 
problem departments or programs.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? I believe that effective 
integration of BTS agencies, improved security at our borders and in 
our nation's transportation systems, and improved information sharing 
and operational response to threats should be the goals applicable to 
my personal performance.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? My philosophy centers 
on setting goals, providing encouragement and guidance as employees 
strive to meet those goals, measuring achievement and rewarding good 
performance.
    In my official capacity at DEA, three employee complaints have been 
filed. These involve transfers of supervisory personnel in two 
instances. The third was the transfer of a clerical position, and it 
has been resolved without formal action.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I am a former Member of Congress, 
and I served on the House Judiciary, Transportation & Infrastructure, 
Select Intelligence, Veterans Affairs and Government Reform Committees. 
As Administrator of the Drug Enforcement Administration, I have worked 
closely with Members and Senators on Committees of jurisdiction over 
the agency to develop both authorizing and appropriations legislation. 
Furthermore, I have met frequently with individual Members, Senators, 
Committees and professional staff to provide briefings on issues of 
interest to them, provided hearing testimony, and participated in 
various activities and events around the country with individual 
Members and Senators. My working relationship with Congress is 
excellent.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.The Inspector General (IG) is independently appointed 
and confirmed to provide independent oversight of the various entities 
within the Department. Should I be confirmed, I would consult regularly 
and work cooperatively with the IG to ensure that open lines of 
communication exist between our offices, and that he or she has access 
to any and all information necessary and appropriate to carry out the 
his or her oversight functions.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. Should I 
be confirmed, I would maintain open lines of communication with 
Committee members and staff and consult regularly with them to learn 
what the intent of Congress was in drafting pertinent sections of law. 
From there, I would seek to ensure that all regulations being developed 
or implemented by BTS are consistent with that intent. I would consult 
regularly with stakeholders to gather their ideas and input on how any 
proposed regulations would affect them, and submit all appropriate 
regulations developed by BTS to the standard notice and public comment 
procedures.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Congress crafted rather comprehensive 
legislation creating the Department of Homeland Security only three 
months ago. For that reason, I believe it would be prudent to allow the 
agency and its components to get operations up and running long enough 
to see how well things work before any additional legislation is 
contemplated. At the same time, it may become clear in the near future 
that technical or even more significant changes to the law are 
necessary to improve the agency. Should I be confirmed, I will be glad 
to work with Congress, the Secretary and the White House to develop and 
enact those changes.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. The National Strategy for Homeland Security aligns the 
resources of the Federal Government to directly support the new 
clarified lines of responsibility and accountability. Should I be 
confirmed by the Senate, I will look to the President's Strategy to 
ensure that we are following the goals set forth in that document. 
Additionally, I believe that a review of all discretionary programs 
within BTS is necessary to see if they fall in line with this standard. 
In instances where they do not, or there are mandated programs not yet 
in place, I would direct the appropriate BTS agency to take necessary 
steps to change its procedures or develop and implement new programs 
(including set criteria and an open participation process) by any 
Congressionally-mandated deadlines. In order to ensure accountability, 
I would insist upon regular status updates from the affected agency and 
would provide guidance and direction to the agency as necessary.

    The Chairman. Thank you very much.
    Since we do have a vote fairly soon, I will try to make my 
questions very brief so that--to try to make sure that all of 
my colleagues have a chance to ask questions before the vote; 
although, certainly if they spill over, we can come back after 
the vote, but sometimes at that hour, returnees are not as 
frequent as earlier in the day.
    Let us talk about the border just for a second. We have 
this horrific problem, which--as Senator Lautenberg, said, it's 
on all of our borders. It happens to be worse, at the moment, 
in Arizona, because California squeezed and, as Senator 
Hutchinson and I and you were discussing, Texas squeezed, and 
so they funneled up--the flow of illegal immigrants and drugs 
funneled up through the State of Arizona. I am sure that if we 
clamped down in Arizona, then they would probably try to find 
some other method.
    Just give me some general overall views as to what you 
think needs to be done. And in that answer, if you would 
discuss this issue of the use of military, which, as some 
people believe, is the answer to the problem. I have serious 
doubts about whether that is, because military personnel are 
not trained for that kind of work. But I do believe, and I am 
interested in your views, that some of the equipment that is 
available to the military--whether it be satellite, or whether 
it be drones, or other equipment that perhaps we could make use 
of in order to better surveil and secure our borders.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    And first, in reference to the military, I share your 
concerns. I do not believe that we need to militarize the 
border. It is a law-enforcement function. And you are 
absolutely correct that the role that they play is a support 
function to those engaged in law enforcement, and they are, day 
by day, doing the civilian work of protecting the border. At 
any point that we have a more serious attack, the military is 
there to support and protect America.
    I hope that my votes in Congress have reflected the view 
that military has a support responsibility. The National Guard 
has played an important role from time to time.
    The Chairman. They are on the border as we speak, the Guard 
is.
    Mr. Hutchinson. They plan an essential role. But, generally 
speaking, I would be--I think it is a law-enforcement function 
that needs to be carried out at the border.
    Now, first of all, Senator McCain, I agree with the 
comments that you made in your opening statement. I recall my 
first visit to the border in 1982 when I was United States 
Attorney. It was in San Diego, and it was a very open border 
then. They have built fences, they have built protective 
barriers and surveillance equipment. It has squeezed it more to 
Arizona, as you have indicated. As--in the DEA, I have been 
down to Nogales. I have seen the border there, the tunnels 
there, the openness of that arena. I look forward to going back 
with you.
    I believe that we have to rely very importantly on 
intelligence. That is an important part of the equation, in 
terms of the people that would come across in a harmful 
fashion. So we need to gather intelligence, share intelligence, 
in a better way for specific threats.
    Second, technology is essential. I am delighted that in 
Homeland Security, we have a directorate of science and 
technology, which, in the private sector, would be comparable 
to a research and development shop. And so that as we see needs 
on the border, we can assign them the task, working with 
private enterprise, private research facilities, to look at 
technology responses to our problems on the border.
    And then it is a matter of allocation of resources. 
Obviously, Congress has a lot to say about the resources that 
we have. But with the resources I have, we want to allocate 
them very appropriately--going toward the threat, making sure 
there is a balance--that the northern border, as has been 
indicated, and with the southern border, both are a threat, and 
both have to be reinforced with adequate resources.
    Finally, you mentioned the homeland defense groups, and I 
will just say that the information from citizens is very 
important, but I hope that they will always allow the law 
enforcement to do their role and to take the risk upon the law 
enforcement side, because it is very dangerous work on the 
border.
    The Chairman. I have a number of other questions, but I 
will not pose them at this time.
    Senator Rockefeller?
    Senator Rockefeller. I am going to try and do three real 
quick ones to satisfy my Chairman.
    It is extraordinary, in the world of intelligence, how good 
we are at collecting, and how poor we are at analyzing and then 
disseminating, otherwise called ``sharing.'' And all kinds of 
speeches are given, and yet turf always needs to be protected. 
And we have come to a point in our Nation's life where that is 
no longer acceptable, and you understand that very well.
    We created, in the TSA, the Transportation Security 
Oversight Board, and so the whole question of monitoring of 
intelligence becomes very much a part of our job and of your 
job. And incidentally, in terms of our job, as well as the 
Administration's job, to fund what it is that you have to do. 
It is good for all of us to talk about what you need to do, but 
if the Administration does not fund it or we do not fund it, 
then we become hypocritical in what it is that we say.
    We have already confirmed Governor Ridge, so I need to 
assume that you have sat down with him since that point and 
have discussed a bit the question of intelligence and the 
question of collecting and, most importantly, of sharing 
intelligence within these various agencies and within the 
various agencies which you will oversee. Otherwise, it means 
nothing.
    You do not need to answer that, but will you be willing to 
come to the Intelligence Committee or to this Committee, on an 
unclassified basis, to discuss these matters?
    Mr. Hutchinson. Certainly, Senator Rockefeller, I would be 
delighted to do so. Within the Department of Homeland Security, 
there will be a directorate for information analysis, the 
intelligence side of things. And it will be very important, as 
you pointed out, for the agencies within my directorate to have 
a close relationship with them, to make sure we have the 
information that they receive, that they analyze.
    But, in addition, it is important that that information is 
provided to those who have a need to receive the information on 
a State and local basis. The dissemination of it is very 
important. And Congress wisely provided a director of State and 
Local Coordination that reports to the Secretary directly that 
will make sure that there is a good flow of communication to 
our State and local counterparts.
    I think human intelligence is very important. And so I hope 
that, while the intelligence goes into the directorate of 
intelligence analysts from the CIA and the FBI, that the 
agencies within my directorate will be able to be a good 
collector of human intelligence, particularly on the border, 
and I hope that that will be helpful to carrying out our 
mission.
    Senator Rockefeller. Well, we have five centers now for the 
collection and analysis, distribution of intelligence, if you 
include the Under Secretary of Defense. And it is going to be 
quite a challenge. We have not done it well in the past. It is 
going to be more difficult in the future. I am delighted to 
hear you will do it or you will send somebody who will do it.
    Second, small-airport security is tremendously important. 
9/11 started through small airports, and those of us who live, 
as do you, in rural States need to know that there will be a 
commitment, not just to seeing the magnificent results that we 
do with the Pittsburghs and other larger arenas, that you are 
on track and conscious of security for our smaller airports 
around the country.
    Mr. Hutchinson. We shared many stories of the commonality 
between West Virginia and Arkansas, both small, rural States, 
and I share that concern. TSA, under Admiral Loy, has 
concentrated on commercial airports, both small and large, but 
whenever you are looking at a potential weapon, that could come 
from a small airport as well as it could from a metropolitan 
airport, so there has to be an emphasis across the board.
    Clearly, this is a burden on many of the small airports, 
from a financial standpoint, and that is a burden that has to 
be shared, but we are mindful of the threats that can come and 
the risks and the vulnerabilities that are shared by airports 
of all sizes. And I know that TSA has concentrated on that, and 
I will, as well.
    Senator Rockefeller. I think the TSA has done a superb job, 
and I need to say that.
    Senator Cantwell brought up the extremely important matter 
of biometrics. Our country is not yet familiar with biometrics 
and what its implications are, both for the security and the 
identification, and, from that security, leading to greater 
security through knowledge of who is and is not in this 
country, and who is and who might not be dangerous. That has to 
be done instantaneously when we develop a full real-time system 
of checking people in at airports. And it has got to happen a 
lot of other places. It also, of course, is something that 
would appear, on the surface, to violate people's personal 
rights, even as they are doing the same thing at ATMs, but they 
do not make the connection. So it can scare people a bit.
    I am a strong believer in biometrics, and I would hope that 
you would not only encourage that technology and that use which 
is still to be even further developed, but that you will then 
be able to share that with all agencies within your 
jurisdiction and outside of your jurisdiction. Because that, 
again, sharing biometrics is sharing intelligence.
    Mr. Hutchinson. You are absolutely correct, Senator. 
Congress has given us some very significant deadlines, in terms 
of developing the biometric standards as a part of the entry-
exit system so that we know not only people who are coming into 
the country under visas, but who are leaving--when they are 
leaving. And that we have a standard of biometrics that we can 
identify those people, and we can check their records more 
closely to make sure that people with inappropriate backgrounds 
do not come in this country who wish to harm us.
    Privacy is a concern. I think there are two things that are 
important. One of them is that we bring along our international 
partners, because the United States does not want to stand 
isolated in having one standard. And I think our international 
counterparts understand the importance of a biometric standard 
for entering people and exiting people from a country. So we 
look to work on an international basis to accomplish this goal.
    And then second, it is about educating the American public 
and assuring them that their privacy concerns will be met. I am 
pleased that in the department, there will be a chief privacy 
officer. And I think we will readily and regularly be asking 
for opinions and evaluations from that arena to make sure that 
America's privacy concerns are met.
    Senator Rockefeller. Thank you, sir. I look forward to 
voting for you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    I will come back to that, actually, because it is an 
important topic, and my office has been involved with that as 
it relates to the Patriot Act, and I think you are right on 
target as it relates to getting international cooperation.
    The point that you were bringing up largely on technology 
and implementing technology, we have run into a particular 
problem as it relates to the northern border, in that we have 
so much territory that the unstaffed areas have been a 
challenge. And obviously, technology has been used with cameras 
to track that. Unfortunately, the technology that has been 
deployed was really much more scaled toward desert terrain. And 
I think as people have deployed them in the rainy Northwest, in 
the forest areas, they have found out that they do not work as 
well. In fact, we have had an investigation reveal that much of 
the time they are water-logged, that there is not an adequate 
power supply, that the software does not work, that the cameras 
are not really tracking the information.
    So how will you go about evaluating those technology tools 
and making sure that the demonstration projects really are on 
track and, if they are not on track, that we look at different 
ways to supply the resources?
    Mr. Hutchinson. Well, first of all, I think it is very 
important to be out in the field. And people who have followed 
me at the DEA know that I like to be out, I like to see it 
firsthand. I have already had the occasion to go--a limited 
visit on a northern border in the Detroit area. But it was 
enough to recognize that the northern border is a little bit 
different from the southern border, or the southwestern border, 
as you pointed out. And we--so we need to be in the field.
    Second, we need to make sure the technology recognizes the 
distinctions and the differences. Again, the science and 
technology directorate of Homeland Security was very 
instrumental in evaluating the new technology and its 
application, working out the bugs that you mentioned.
    The northern border has always been an open border, and we 
are moving into an area now that we recognize that there are 
threats. It is very important to work with our Canadian 
partners so that, as we move technologically, it is not--it can 
be harmonized with what our Canadian partners are doing, as 
well.
    So I look forward to working with you on those issues and 
the unique concerns that you have from Washington State.
    Senator Cantwell. We will get you that specific case that 
has gotten a lot of attention in the Northwest and, obviously, 
generates a lot of concern of citizens. So thank you for that.
    The second issue is staffing. Can we see a continued 
advocacy on an increase in northern border staffing, and not a 
reduction?
    Mr. Hutchinson. Yes. I do not see any change in that. The 
information I have is that the threats and concerns along the 
northern border are significant and that we need to maintain 
our staffing commitment there. There has been an increase in 
resources that has been provided by Congress for our Border 
Patrol, Customs agents along the northern border. And I do not 
expect that to be diminished.
    Senator Cantwell. And how about an increase? Because the 
authorization will allow for that.
    Mr. Hutchinson. I certainly believe that there is 
justification for additional resources. It is--so it would be a 
matter of working with Commissioner Bonner, working with the 
different agencies to see where the greatest needs are.
    I think it is important, when we look at this new 
department, that we first effectively organize and recognize 
that that is a very important part of our protection, and 
accomplish the efficiencies there, and then we make decisions 
on where and what resources are needed to be applied.
    Senator Cantwell. Well, I think the technology and staffing 
issues go hand-in-hand. If the technology we deploy is not as 
effective or we cannot get effective technology for those 
porous areas of huge, vast amounts of land, then we need to 
look at other solutions. So the staffing thing becomes very 
critical. I would appreciate your looking into that.
    And then back to this issue that my colleague, Senator 
Rockefeller, raised or expounded on. We have had a lot of 
debate in Washington State, obviously a variety of people of 
interest to the FBI, but also a lot of concern about the 
deportation, and I just am interested in this entry-exit system 
and the special registration of Arab males. Do you support 
that? Do you think that is the most logical way for us to 
proceed?
    Mr. Hutchinson. Well, as part of the entry-exit system, I 
think that it is--the first step is reasonably to ask for the 
identification of those individuals that would come from 
countries of concern, a particular risk where we know that Al 
Qaeda operates. And so I think it is an appropriate step. 
Obviously, as we go through this process, it is very important 
to make sure that we educate and inform so that there is not a 
sense in the Arab-American community that they are being 
targeted.
    I was speaking on a television station that is directed 
toward the Arab-American market, and tried to assure them that 
this is simply a method of identifying those people that might 
be of concern and that we want to continue to give the 
assurance that it is not targeting a particular population or 
racial background. It is just simply those who will come into 
this country, our foreign visitors, of countries of concern.
    Senator Cantwell. I see my time has expired, but I am 
concerned about the discriminatory nature of that. But I think 
if you can work on that oversight you have of a visas--a 
biometric standard, working with foreign countries, so that you 
know who people are--because we are going to continue to have 
millions of people who enter and then overstay. But if we 
really know who people are and we have cooperation from foreign 
governments, it is going to make our job easier.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    Air cargo security. Senator Feinstein and I asked for a GAO 
report to give us the status of air cargo security, and we 
found that there were a number of holes. As people stand in 
long lines to get in an airplane and they take off their shoes 
and everything they can think of that might make the machine go 
off, we have not looked at the belly of the airplane nearly as 
carefully. We are now checking most of the checked bags that go 
in the belly, but cargo is another area.
    Airlines want to start carrying mail again, and I think it 
would be important for them to do so, but only when we have a 
security system in place for mail and air cargo.
    My question is, Are you tuned into this problem? Will it be 
a priority for you? And do you support legislation that would 
give the Transportation Security Agency all the tools it needs 
to decertify an air cargo carrier or handler that does not 
comply with strict rules of security?
    Mr. Hutchinson. Thank you, Senator, and I am very grateful 
for your leadership on this particular issue and your concerns 
expressed in this area.
    And I am aware of the work that needs to be done in dealing 
with air cargo. Whenever you look at the emphasis that has been 
placed on the passenger screening and now the baggage that goes 
forth into the belly of the aircraft, we have to also look at 
the air cargo. And TSA has taken some very important steps in 
that arena. They are first steps. More needs to be done.
    I commit to you that I will work on this and be glad to 
work with you, as well. I am grateful, again, for your pushing 
this issue forward.
    Senator Hutchison. Thank you. We will work together on it. 
And Senator Lott and I have talked about it, and Senator 
Rockefeller and I worked on it last year. We passed it in the 
Senate last year, but it died in the House. So I do think it is 
the last loop to close, and I hope you will work with us to do 
it.
    No. 2, port security. I have one of the largest ports in 
America. Our area handles probably half the petro-chemical 
complexes in the entire United States. So while our ports have 
done a great deal on their own, there is no way they could do 
everything possible or have access to everything they would 
need to fully secure these very important ports. Is this a 
priority for you and for your Administration?
    Mr. Hutchinson. It has to be. And whenever you look at the 
legislation that this Committee and the Congress has passed 
that directs both the Coast Guard, the TSA, and Customs to look 
at the issues of port security, it is certainly a mandate that 
we will pay close attention to.
    I think part of the--what we need to address will be the 
assessments of our ports, to look at the vulnerabilities, the 
infrastructure that is in place, and the threats that exist 
that could take them out, and then, based upon those 
assessments, to be able to develop a plan for protection and 
for response. And these ports need to have the assistance of 
the Government agencies, from TSA to Coast Guard to Customs, to 
accomplish this. So it is something that demands a great deal 
of attention.
    One of the things that is important is to get more 
information in advance of what is coming into those ports, and 
from a container standpoint. I think the 24-hour rule that 
Customs has adopted, the Container Security Initiative, is a 
very important part of that.
    Senator Hutchison. You mentioned the Coast Guard, and I 
want to say I do support the Coast Guard being in the 
Department of Homeland Security, because I think the Coast 
Guard is now more important than ever before. What are your 
plans regarding the beefing up of the Coast Guard for its added 
responsibilities of security?
    Mr. Hutchinson. The Coast Guard plays an essential role, 
and I think that their importance to what we are trying to 
achieve is reflected by the fact that they are directly 
reporting to the Secretary. But, at the same time, they will be 
coordinating closely with the agencies in our arenas. It is 
important that we do not overlap what we are trying do with TSA 
and Customs.
    In terms of resources, I will let the commander of the 
Coast Guard address that issue, since that is not a direct 
report. But they play an essential role, and I look forward to 
coordinating closely with them.
    Senator Hutchison. Well, I would hope that you would 
increase their capabilities, because I think they are going to 
have a lot more responsibility.
    Last question. The machine-readable visas that have been 
used for pedestrian traffic on the southern border have been 
very successful. However, the pedestrian traffic delays have 
increased because of just the sheer volume of people who are 
coming over now. Are you going use some of the 150 million INS 
technological improvements in infrastructure money to look at 
expediting, not only the pedestrians, but the cars and trucks 
with these kinds of machine-readable visas where people have 
proven and have their clearances?
    Mr. Hutchinson. That would be a very important investment 
to make. Last night, I had the occasion of meeting with 
Secretary Creel of Mexico, who is the Secretary of Government 
who has responsibility in these issues. One of the issues that 
they are concerned about and we are concerned about is to keep 
that commerce flowing, and reduce the delays. And technology 
will be one of the answers, and that is one of the uses of this 
money that should be examined and considered for.
    Senator Hutchison. Thank you, Mr. Chairman.
    The Chairman. Senator Lott?
    Senator Lott. Thank you, again, Mr. Chairman.
    Congressman as I understand it--how many people are coming 
in this department, all told? Is it something like 170,000?
    Mr. Hutchinson. Yes, sir, 170,000.
    Senator Lott. And I guess they are all the parts of a 
couple of dozen agencies, bureaus, parts of departments, and 
probably a dozen pieces from all over the place.
    I remember asking several months ago, I guess--maybe 16 
months ago or so--our friend, Tom Ridge, ``As we consolidate 
and develop efficiencies and learn to do a better job spending 
money more wisely, is it possible we could do this job with 
fewer people?'' I never quite got an answer to that, because I 
know everybody has been committed to doing the job, which is so 
important, and we have so far to go that you do not want to get 
too tripped up in, you know, trying to do it with fewer people 
or doing it efficiently.
    But, you know, you are from Arkansas, and I am familiar 
with your voting record, and I hope that you will see, you 
know, along the way, if you can do these things with the people 
you have more efficiently, more effectively, and maybe with 
less money or fewer people.
    And also I think one of the things we are going to 
experience here--in some areas, we are going to go too far too 
fast, and we are going to have to back away from it a little 
bit and say, ``Well, maybe we overdid that, or we went too 
far,'' and we are going to have to reevaluate it.
    Just one example, you were talking about what Customs has 
been doing with regard to air cargo imports. I understand that 
they have now come up with a proposal that would require that 
detailed manifest information be submitted to Customs at least 
8 hours before loading the aircraft for air express packages, 
and 12 hours for loading--for other air cargo. The proposal 
would require information 24 hours before loading an aircraft 
for export. Clearly, the cargo area is one that we have got to 
be concerned about, and we have got to ask ourselves, ``How do 
we deal with it in the commercial passenger aircraft, and in--
on a regular cargo?'' But in this case, what you would do would 
be to effectively eliminate overnight express shipments.
    So the question is, did--is that maybe going too far? And 
we are--we are going to definitely be losing something if we do 
it this way. And so I guess what I am asking you is that--is a 
commitment that you are going to continue to look at ways to do 
these things better, more effectively, more efficiently, maybe 
with, sometimes, different people or better people, fewer 
people, and also to make sure that we do not go too far 
sometime without having a hearing.
    We are faced with that right now in this Committee, on the 
Aviation Subcommittee. A lot of things we have done, we now 
need to come back and ask ourselves, ``Are the right people 
paying for these costs? And are we doing it in the right way?''
    Would you respond to that--package of comments, really?
    Mr. Hutchinson. I think that is a very important reminder, 
as Homeland Security is set up, that one of the most important 
responsibilities is, as we bring 22 agencies onboard, where are 
the efficiencies in the combining of these agencies? And 
obviously, with the needs that have been expressed in the 
border areas, personnel-wise, I do not know that you will 
ultimately reduce the number. When we can--and, at the same 
time, protect America--but if you are looking at middle 
management over time, I expect there to be a substantial amount 
of efficiencies there. As we look at the inspection services 
along the border, as you look at our enforcement agencies, 
there is a lot that we can do. I think it is a great 
opportunity for us.
    And so I hope that we will be measured, in terms of 
productivity of homeland security, not just by how much we 
spend, but by how effective our reorganization is and whether 
it adds to the security of America.
    In reference to the impact on our commercial carriers, 
because of the notice requirements, it is important to maintain 
the balance of security with not impeding the legitimate flow 
of commerce. I will have to look into that specifically, the 
point that you raised. The notice is important. Sometimes you 
have to look at the specific applications, whether we are 
defeating a very legitimate purpose.
    Senator Lott. One area where Members of Congress took an 
action was the Arming Pilots Against Terrorism Act, and yet we 
are not quite sure exactly how that is going to work, or when 
it is going to work, or who is going to train these pilots. And 
I understand perhaps it will be voluntary. How do you envision 
that working?
    For instance, I have been told that you are thinking that 
maybe this training would be done internally. That makes me 
nervous. Who in this department would have that capability? And 
so I hope you will look very carefully at how this program is 
going to be carried out, implemented, who would train the--I 
would think you would be much better off contracting with some 
private sector that has experience in training people for this 
specific purpose. What is your reaction to that?
    Mr. Hutchinson. Well, I think we should always look at the 
private sector as an option. I know that in reference to the 
training of the pilots, that there is a pilot program being 
implemented that we will see how this works and any adjustments 
that need to be made initially. I believe the training is going 
to be conducted through the Federal Law Enforcement Training 
Center, Glencoe, Georgia, which will be one of the BTS 
agencies. And so I think that is a good start. We always ought 
to be looking at options, ways to do it better, and see how 
these--pilot training program will work.
    Senator Lott. I hope you will pay close attention to how 
that is implemented, because I think it could be important. It 
could be dangerous, too.
    One last comment. The border is very important, obviously, 
all over the country, because we do have a flood of illegal 
immigrants that are risking their lives, and also it can be a 
place where terrorists can come in. But the one area that still 
worries me is--I guess, it is maybe because I am more familiar 
with it, as opposed to the Senators from Texas and Arizona--are 
the ports. I still know we have got a lot more capability than 
I thought we would have at this point, and they are doing a 
pretty good job, but I still think there is a huge risk at 
ports all around this country. And while we did provide $93 
million for port security grants to airports, I believe, in the 
fiscal year 2002 budgeting--none of that went to ports between 
New Orleans and Tampa, for instance there were 22 applicants 
for grants; none of those, including the No. 1 of the 22, were 
approved.
    I do hope that you will look at this port security area in 
general. I know the bigger ports, obviously, have the greater 
risk--New York, Baltimore, and ports in Texas and California 
and so forth--but we also have huge risk at some of these 
smaller ports, and I hope that you will look at making sure the 
ones that are particularly potentially dangerous do get some 
assistance, and some attention is paid to allocation of those 
funds in terms of need and geographical distribution.
    Mr. Hutchinson. Thank you, Senator. Much work remains to be 
done, as you pointed out.
    The Chairman. Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    Several of my colleagues talked about the question of 
sharing information among the various agencies that are in your 
jurisdiction. And my question to you at this point is, How 
would you see breaking the mindset among these various agencies 
that tend to keep information to themselves.
    I think it is clear you are right with respect to computers 
and making sure that they are in place to share information, 
but I am concerned that unless you break this mindset, it will 
eventually lapse into something resembling business as usual.
    And here would be an example that I would offer the 
nominee. I mean, let us say the Coast Guard spots some 
suspicious material, something that could be an ingredient for 
a chemical or a biological attack. Related ingredients show up 
at a Customs department office, say, on the northern border, 
which we have been concerned about. And then, at the same time, 
immigration authorities or the FBI have their eye on a 
suspicious set of individuals. Here you have got three 
agencies, where, historically, they would be inclined to work 
in isolation. They mean well, but they work in isolation. How 
in an instance like that, would it be handled differently now?
    Mr. Hutchinson. Well, it is very important to change the 
mindset of the agencies in sharing information. I think a 
tremendous amount of progress has been made since September 11, 
the attack on America. People understand the importance of 
that, and they are trying to accomplish that overriding goal.
    As you pointed out, sometimes it is not a matter of the 
will, but it is a matter of the processes and the structural 
stove pipes that we have set up these different agencies. That 
is what Homeland Security is about, is to break down those 
barriers so the information can flow unimpeded. That is going 
to be the first thing that we are really going to work on, to 
make sure that there is a clear chain of command, and a clear 
flow of information.
    We have had some working groups already established, just 
in terms that I can listen and see what these agencies are 
talking about where the problems are. So that is one of the 
earliest things that we will focus on.
    Senator Wyden. What are the problems that you are hearing 
when you go to these focus groups?
    Mr. Hutchinson. Well, for example--well, just what you 
pointed out, actually, that--where there is information coming 
into one agency, and by the time it goes up the chain to the 
top and then gets to--down to another agency, there could be a 
time gap there.
    I think that what we are looking at is that there is a 
clear chain of command. With the opportunity of the inspection 
side being all in one arena now, there is not going to be three 
different agencies doing inspection on the border. So if we 
have it in--all within the Department of Homeland Security, 
there is naturally going to be a breakdown of those barriers.
    Second, on the enforcement side--and that is another area 
of concern--that you have got Customs agents, you have got INS 
agents out there, and how the information flows there. We have 
opportunities to improve that.
    And I would also point out one of the concerns is outside 
of Homeland Security. We still have to relate to the Department 
of Justice. And I assure you there is a strong commitment from 
Director Mueller, from the Attorney General, and with Governor 
Ridge to make sure those barriers are not there. But it is a 
matter of working on that every day.
    Senator Wyden. On the whistleblower issue that I mentioned 
earlier, I would like to hear your thoughts and have you use 
this opportunity to send a signal to the workers that it is 
safe to come forward. I think there is great concern with 
respect to the workers right now, and certainly the TSA order 
recently, the Transportation Security order, has raised 
additional questions with respect to employees' rights.
    And again, just, let us take a hypothetical, and let us say 
the recordkeeping and data-entry systems are so poor that key 
information that is important to fighting terrorists gets lost, 
and somebody wants to come forward. I am convinced that a lot 
of people are very fearful about coming forward in this 
climate, and I would like to have you use this opportunity to 
state how you feel and send a message that you want that 
information.
    Mr. Hutchinson. Thank you for that opportunity, Senator. 
And the--all the employees that come onboard should know that 
they will be protected from improper political influence, they 
will be protected from reprisals against whistleblowers, and 
they will be assured to retain their current benefits and the 
protections they currently have under law.
    Whenever you mention the circumstance of information that 
is important for the policymakers to know, I certainly hope 
that they will share that with leadership of the new department 
so we have an opportunity to fix it, but clearly that is 
information that Members of Congress need to know.
    We are all together in trying to fix this. The employees 
should know that their rights will be protected.
    Senator Wyden. My time is just up.
    On this whistleblower issue, having worked with a lot of 
them in various areas, including intelligence and healthcare 
and the like, I would just tell you, the first couple of cases 
are going to be absolutely key, because yours is a brand-new 
department with a huge number of employees. If you handle the 
first couple of whistleblower cases in a way that shows that 
you have confidence in the employees, that is going to be 
everything. If they look at those first couple of cases and 
say, ``We are going to get bounced if we come forward,'' I 
think it is going to be very, very damaging.
    I look forward to working with you when you are confirmed.
    Mr. Hutchinson. Thank you, Senator.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Sununu?
    Senator Sununu. Thank you.
    There has been a lot of discussion of technology throughout 
the different lines of questioning today. It came up, of 
course, with biometrics, with some of the questions about visas 
that Senator Hutchison was asking, border patrols, and some of 
the checked-baggage screening, as well.
    I have a broad question about technology. It has obviously 
important. It seems that it is going to be critical to the 
success of the new agency, and in your work in particular. Are 
there any other areas of technology that you think are 
particularly important, or will be going forward, or are 
technologies that you would want to highlight to this Committee 
in our efforts, moving forward, to try to help you do your job 
more effectively?
    Mr. Hutchinson. Well, there are two areas of technology 
that come to mind. One is the border technology. We have a lot 
of sophisticated equipment out there. Can that equipment, for 
surveillance, for protection, be deployed in a way that is 
consistent with the border and that can save on human 
resources? So that is obviously an area of technology that we 
have to explore very quickly.
    The other one that you are very interested in is 
information technology. And we are going to have a chief 
information officer. And I look at the needs along the border, 
for example, whenever I see, you know, an INS inspector at the 
border have a name come in, and they check five different data 
bases, that takes time. There is more room for error there.
    Are there ways that we can combine these data bases, 
modernize the equipment? Customs has made great strides in that 
area, but it needs to be shared with the other agencies. So 
both in those areas, border technology and IT.
    Senator Sununu. Is the same individual who is going to have 
responsibility for data base management and information systems 
going to also have responsibility for ensuring that new 
equipment to screen all checked baggage is put in place at the 
airports? How do you separate those different types of 
technology, and is there someone in the new agency that will 
have overall responsibility?
    Mr. Hutchinson. The structure of Homeland Security is to 
have, to the extent possible, one IT system. It takes time to 
accomplish that. But we have, under the directorate of 
management, a chief information officer, and they will look at 
the infrastructure technology, the information technology for 
all of the agencies, and move toward systems that are 
compatible with each other.
    Then you asked about the technology for the screening and 
the baggage handling in the airports. That is something that is 
shared with the agency that has immediate supervision over 
that, with what we can do better. And so we can look and 
utilize our science and technology directorate and say, ``This 
is a deficiency. This is a need. Take a look at this. Put your 
people to work on this. How can we do that better?'' And then, 
as part of that, will be the procurement.
    So we hope to be operating in a businesslike fashion and 
utilize the research capabilities as well as the procurement 
capabilities for a good technology department.
    Senator Sununu. And you mentioned that position before, the 
research directorate, and I think that is important. That 
individual will be looking forward to breaking-edge--leading-
edge technologies, how they might help us to improve homeland 
security. But I think, in some ways, the bigger challenge and 
the more immediate challenge is going to be to take existing 
technologies that really have never been used in this kind of a 
domestic capacity before--the Chairman mentioned the use of 
drones on the border, for example--and there will really need 
to be someone that has an expertise in the area of applying 
technology to solve real-world problems that is assisting the 
agency, I think. And I do not know if that role has been 
defined as part of the organization. I do not know that it is 
the same position as someone running a research lab, and it 
is--I do not believe it is the same position as someone who 
typically manages an information technology system or a data 
base system.
    Those are very important roles, but I think that is going 
to be one of the challenges, is not looking out 20 years to new 
technologies, but let us just take some available technologies 
and use them better today. And I would just offer that as food 
for thought as you take on this challenge.
    Mr. Hutchinson. Your points are absolutely on target. That 
should be a high priority with us, and it will be. The existing 
technologies out there, how can they be applied to the problems 
that we have? Thank you for sharing that.
    Senator Sununu. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman. Just several 
questions to followup on some of the comments that I made 
earlier.
    Obviously, port security is one of the major concerns 
expressed by many Members of this Committee. And referring back 
to the Hart-Rudman report, it indicated that the port 
vulnerability studies for the Nation's 50 largest ports are not 
expected or scheduled to be completed for five more years. And 
I know there are vulnerability assessments being done on all 
ports in this country.
    It would seem to me, given the imperative of this issue and 
the impact that it could have, not only, you know, economically 
here in the United States, but worldwide--I mean, as the report 
indicated, if there was just one explosive device detected in 
any one container that came into our ports, it basically would 
bring the whole shipping industry to its knees, not to mention 
the effects it would have worldwide with 21,000 containers 
coming into our ports each and every day.
    It would seem to me that we would want to accelerate the 
timetable for these vulnerability assessments. Do you have any 
thoughts on that? Are you familiar with what the status is of 
these assessments at this point? And at least with the largest 
ports, it would seem to me that we would want to do that. 
With--43 percent goes into Long Beach and Los Angeles alone, in 
terms of our cargo shipments--it would seem to me that we would 
make this the highest priority, to evaluate these assessments 
and to move quickly to address the gaps in the system.
    Mr. Hutchinson. You are absolutely correct, Senator. This 
is a high priority, to make these vulnerability assessments of 
our ports. But also we have to be concerned with the large 
ports that are overseas, as well. And I think that, you know, 
we can push the funding of the assessments here. I believe that 
it can be accomplished in a number of different ways. We have 
to coordinate that from the Coast Guard and the TSA and the 
Customs to make sure we have a good division of labor between 
those.
    Also, we are going to have the critical infrastructure 
arena, part of the information analysis, that will have 
responsibility for assessing critical infrastructure. Clearly, 
our ports are a part of that. As soon as we identify them, we 
make sure we know the threats and the vulnerabilities. But we 
need to expand that even beyond our borders, because if there 
is a non-secure port in Rotterdam with a container ship coming 
this direction, that impacts us. And Customs is working very 
aggressively to carry that out.
    Senator Snowe. Are other countries being cooperative in 
this regard, in working to make this a priority?
    Mr. Hutchinson. I think, of the 20 largest international 
ports, 16 of them have signed agreements to follow the 
Container Security Initiative. And so this is a--very, very 
good news. And I know that Commissioner Bonner is pursuing 
those very aggressively. So there is a high level of 
cooperation, because it is--you know, once you start signing 
two or three of them up, which they have done, then if you want 
to have the same level of competitive advantage, the others 
will sign up, and that allows them to pre-screen the cargo 
coming in, to have advanced information on the containers, and 
for them to assess their own ports to see what kind of 
infrastructure protection they need to have.
    Senator Snowe. Well, this report went on to say that very 
small amounts have been given so far, with respect to this 
issue, in grants. And that goes back to what Senator Lott 
referred to earlier. I mean, even for--Los Angeles and Long 
Beach, which receives 43 percent of the shipments, in the year 
2001 received a grant of $6.1 million. And I do not know, maybe 
this has been updated since then, and--much has happened. But I 
think we would want to be apprised if we are not giving 
sufficient amount of money to make sure that port security is 
being pursued aggressively in what we need to do in order to 
close these vulnerability gaps.
    Mr. Hutchinson. I know that there are additional funds that 
are provided in the 2003 budget that will free up some money to 
pursue these initiatives, as well. But the report is very well-
taken in its directions on that.
    Senator Snowe. Another recommendation in this report is 
on--in talking about--and certainly my border, in Maine, with 
Canada, and one of the longest, if not the longest, with 
Canada--we have many remote locations. Do you have any 
recommendations, in terms of how to address that? Because 
obviously, that is important to the local residents, to be able 
to have use of those areas, but at the same time, we want to 
make sure that they are secure.
    Mr. Hutchinson. In terms of the ports of entry, all of the 
ports of entry now are manned, have personnel there 24 hours a 
day. And so this has been an adjustment because of the 
attention that you and other senators have given to this 
concern on our northern border. So that needs to continue, 
because we want to make sure that the citizens have access, but 
they are also able to control and to record those who are 
coming in and going out.
    Senator Snowe. I know that the U.S. and Canada signed last 
month the U.S./Canada Smart Border Declaration, and I think 
that is moving, certainly, in the right direction. I hope we 
can accelerate that timetable, as well--but also to be used as 
a standard, international standard, for other international 
organizations. We have to encourage other countries to assume--
and organizations--to adopt these standards so that we do have 
symmetry around the world.
    Mr. Hutchinson. Our relationship with Canada has been 
superb in trying to improve the security on the border. The 
initiative that was signed has been very instrumental in that. 
I know that the goals of both are to make sure that commerce 
flows, but to add protection on both sides. And the background 
checks on the transportation systems, the frequent travelers 
going back and forth, is moving forward. The fast lane has been 
helpful. And so we hope to be able to continue and push those 
initiatives forward.
    Senator Snowe. Overall, in terms of the magnitude of your 
responsibilities--they certainly could not be greater when you 
are thinking of what you are enjoining, in terms of the 
agencies and their jurisdictions--are certainly varied. I would 
hope that you would make sure to conduct an audit of all the 
things that really need to be done sooner rather than later and 
share that with the Committee so that we can help you to meet 
your responsibilities under the law, and to help you 
organizationally, as well. You know, I know that there is no 
question that your paramount challenge is the organization 
issue, and making sure that the bureaucracy functions in a way 
that does not allow lapses that obviously violate our security 
in this country. So I hope that you will share that with us.
    And as far as the Coast Guard is concerned, again I 
certainly--I know that you will have a good working 
relationship with the Coast Guard, working hand-in-glove, as I 
said earlier, but also to ensure that there are not any 
operational or jurisdictional disputes that they can--because 
obviously the Coast Guard is going to play a premier role in 
ensuring our homeland security.
    Mr. Hutchinson. I look forward to working with you, and 
that is an excellent idea. One of our important 
responsibilities is to keep you informed as to the needs that 
are out there and the problem areas. So I look forward to 
working with you, Senator.
    Senator Snowe. Thank you, Mr. Chairman.
    The Chairman. Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you.
    Mr. Hutchinson, I was over on the floor for a debate on the 
Agriculture Disaster bill. And, at least for my State, that is 
where I had better be when that is being debated. So I missed 
your opening statement.
    But I wanted to come over to say that I support your 
nomination, will vote for it, and think that you are a good 
choice by President Bush. And so I am pleased by your 
selection.
    I did want to ask a question about something I have spoken 
about on the floor of the Senate a number of times and on which 
there has been virtually no action. That is, we have what is 
called a ``watch list'' at the State Department that is made 
available to INS. It is also made available to the consular 
officials in our consulates around the world. That watch list 
contains the names of people who we know are terrorists or 
suspected terrorists.
    We also know that that watch list is unavailable to the 
650,000 people across this country who perform their law 
enforcement duties, city police officers, county sheriffs, 
highway patrol, and others. And if they, this afternoon, stop a 
5-year-old Ford car on a highway just south of Pembina, North 
Dakota, and it has four people in it, they have just crossed 
the border, probably not at a checkpoint; they have crossed at 
a remote point and they are known terrorists on our watch list 
at the State Department, the highway patrolman who stops that 
car will access the NCIC to see whether these people have 
outstanding arrest warrants, or whether they are guilty of a 
felony, or one thing or another, but the highway patrolman will 
not, under any circumstance, ever be able to access the watch 
list. So that highway patrolman can have four known terrorists, 
known to the State Department, known to the Immigration Service 
and the consular officers, in the car, stopped, and not know 
it.
    It is interesting, the fellow that piloted Flight 93 that 
crashed in Pennsylvania was stopped by a highway patrolman in 
Maryland for going 90 miles an hour. It turns out that person's 
name was not on the watch list at that moment; but had it been, 
that patrolman had one of the pilots, one of the terrorists, 
stopped at the side of the road, but would not have any way of 
knowing that this person was a terrorist.
    Let me just say that the Rudman-Hart Commission said that 
the top priority in all their recommendations, is to provide 
the eyes and ears and opportunities for 650,000 law enforcement 
folks across this country to have access to this watch list.
    First of all, are you familiar with this problem and this 
issue? And, second, can you give me a description of how you 
think you and the Administration will work and move to resolve 
it?
    Mr. Hutchinson. Thank you, Senator. And I am somewhat 
familiar with the broad parameters of this problem. And I do 
know that we have improved the information going into the NCI 
system that all the State troopers and those in local law 
enforcement have access to. So those who have--are alien 
absconders, those people who have deportation orders, they are 
being entered into NCIC. Much more work needs to be done to 
make sure that the people on the street have the information 
that will help get the job done and protect America.
    In reference to the watch list, I--you know, that is 
designed for, you know, international efforts in knowing who, 
in every country, ought to be denied visas. I think we need to 
look at how that information that is appropriate can be put 
into a system that is more available to local law enforcement. 
So thank you for raising that. We need to make sure the watch 
list is comprehensive, it is--has the information on--in 
itself, that is necessary, and then it is available to the 
right people.
    Senator Dorgan. If I might just say, Mr. Hutchinson, the 
watch list is available to the Immigration Service. So 
presumably, someone trying to cross the border from Canada into 
the U.S. would be able to get through the Immigration Service 
by avoiding them, going ten miles west or east on some country 
road. And then ten miles south of that border at Pembina, North 
Dakota, although the immigration service had the information 
ten miles north of the border, ten miles south, the highway 
patrol or the county sheriff will not have access to that 
information.
    You are quite correct, the NCIC has been improved, but it 
does not, at this point, consist of the names of terrorists or 
known terrorists who are on the watch list. That watch list is 
not perfect, you are correct about that, as well, but it is the 
only comprehensive list that we have made that describes 
terrorists who we know are terrorists, those who we suspect are 
terrorists.
    And again, the top recommendation, the top priority, of the 
Rudman-Hart report was to correct this and to correct it 
quickly. And I have been raising this issue for some months, 
and regrettably, I see very little progress. And I am heartened 
by your selection, because I think you are someone who can get 
something done, and that is why I wanted to come and make this 
point.
    Every law-enforcement official across this country deserves 
to know if they have got someone in the car in front of them 
that they have just stopped who is a known terrorist and on a 
list that this country has. They deserve to have that. It 
desperately short-changes them and risks their lives, and 
promotes great risk for this country by not putting in the 
hands of 650,000 law-enforcement people that information.
    So I wish you well, Congressman Hutchinson. I think, as I 
said, you are a good selection.
    I am sorry I was delayed today, and I hope the Chairman 
recognizes that I had to be on the floor of the Senate. Thank 
you very much.
    Mr. Hutchinson. I am grateful for you taking time to make 
this very important point, and I look forward to working with 
you on it.
    The Chairman. I thank you, Senator Dorgan.
    Asa, the cheapest commodity around this town is advice, so 
I will be brief in mine.
    One, on the issue of border security. I am not an expert on 
all borders. I do have some expertise about our southern border 
in my State. You are never going to hire enough people, you are 
never going to have enough people on the ground, to surveil or 
control our southern border. So I think technology is the 
answer. And whenever you embark on new technologies, there are 
failures. And when there is a failure, there is a scandal, and 
then people draw back and do not ``think outside the box,'' if 
I might use that trite phrase.
    Use technology. We are never going to be able to achieve 
the border security that we need unless you try new 
technologies and different ways of addressing this, I think, 
very serious problem. It is going to get worse.
    I would like to see the Mexican economy get better. From 
what I have seen, it may get--people predict that it is going 
to get worse. That is going to drive more people over our 
border, and the same thing with other countries in Latin 
America, as well as from all over the world. We now see Chinese 
citizens coming across our southern border and in other areas.
    The other advice and recommendation I have for you is 
something that you know. The one thing we hate here in the 
Congress, as you remember very well, is to be surprised. If 
there is something bad going to happen, come and talk to us 
about it. Do not wait until we read about it and then react, 
sometimes in anger, either justified or unjustified. We need to 
see you, we need to talk to you.
    These are incredibly heavy responsibilities. We will be 
your partner, and you have established relationships over the 
years with many of us which, I think, will--it has established 
the basis of trust and confidence in you. Do not betray that by 
keeping things from us. I think that every Administration has a 
tendency, understandably, not to share. But please do that with 
us. And I can assure you that Members of this Committee will 
work as hard as we can to assist and help you.
    There is bound to be some mistakes made. Your charter is 
too large. Your responsibilities are too great. Let us work 
with you, rather than have an environment where we feel that we 
are not kept informed. And you are as aware of our 
responsibilities, as we are.
    So we are very pleased at your selection. We are very proud 
to have an American of your calibre willing to serve our 
Nation. And we--I will do--we will work as quickly as possible 
to get you confirmed so you can get about your job. Thank you.
    Mr. Hutchinson. I am grateful for the counsel, and for the 
hearing today. Thank you.
    The Chairman. Thank you.
    This hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]


                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Welcome Administrator Hutchinson. This Committee has worked very 
hard on the issue of transportation security. We have passed 
legislation to work towards securing our seaports and airports and last 
year this Committee passed the Aviation Security Act of 2002, and for 
the most part, we are well on the way to implementing that Act. The 
Committee also approved and saw pass into the law the first major 
enactment to protect our seaports, the Maritime Security Act of 2002, 
and I am happy to report, that with the able assistance of the Coast 
Guard we were able to negotiate an international agreement that would 
set up the same security structure on an international basis. However, 
despite the position taken by the Senate to provide a guaranteed source 
of funding to assist with the implementation of security measures 
through user fees, we were not able to agree with the House on a means 
of providing dedicated funds. The Coast Guard recently announced 
preliminary estimates for compliance with the Act that calculate the 
costs to be in the in the billions of dollars, not millions of dollars, 
but billions. This is going to be an immense challenge, but I do not 
expect that you will back down from industry complaints in the face of 
the legitimate and real security needs and threats posed at our 
seaports, and our maritime borders. You are going to have to help to 
ensure that we get the funds necessary, through federal sources, or 
user fees, from the industry itself, but security must be paramount.
    This Committee also approved legislation that would enhance our 
ability to conduct background checks on truck drivers that will help 
set the structure for the disqualification of truckers that pose 
security risks in hauling hazardous cargoes. The Committee also passed 
legislation securing our passenger rail network, our freight rail 
network, and to help assist the bus industry with new security 
programs. Incredibly, because of objections from a few Senators we were 
not able to pass these bills. We are going to need your leadership to 
help pass these bill this year. The job that the President has 
nominated you for is one of critical importance and will be a 
tremendous challenge.
    The Border and Transportation Security Directorate is the largest 
part of the Homeland Security Department, employing well over half of 
its 170,000 personnel. The leadership of this Directorate is expected 
to create a results-oriented organization that will be judged on its 
performance before there is an opportunity to get off the ground. The 
state of security at our seaports and airports is being watched by the 
American people and the Border and Transportation Security Directorate 
will be held to the highest standard.
    The Transportation Security Administration (TSA) will be faced with 
coordinating the challenges of transportation security. TSA has 
generally met the baggage and passenger screening deadlines but a lot 
more remains to be done. We did extend for a limited period the 
explosive screening deadline, yet this Committee expects to see the 
deadline met. The success that has been realized with the deployment of 
federal screeners at the airports needs to be repeated with everything 
that TSA and the Border and Transportation Security Directorate 
undertakes. I know from reports that the TSA staff is working as hard 
as possible and a GAO report notes that things are moving well.
    These successes are important, however, I am extremely concerned 
about security in the maritime and land security arena. The sole focus 
on aviation security has left a significant manpower shortage in 
surface transportation security. An example of this security shortfall 
is the lack of personnel that have been hired at the TSA's Division of 
Maritime and Land Security. This division was authorized 250 full time 
employees for FY03 and 80 full time employees for FY02, however it is 
currently staffed with only 67 employees. Maritime, and all other 
surface transportation, account for five of the six transportation 
modes, and should be addressed accordingly. While we enacted 
legislation during the last Congress in the areas of port security and 
aviation security, we still have to pass legislation on rail security, 
and to assist the other surface modes. This needs to be a much higher 
priority for the Department of Homeland Security.
    Recently, West Coast ports were closed down as a result of a labor 
strike, while the strike was settled amicably, the cost of the stoppage 
of trade was reputed to be more than two billion dollars a day. The 
stoppage of trade not only affected our trucking companies and 
railroads because of lost business, but it also caused the closure of 
U.S. manufacturing and industrial companies that rely on trade. Closure 
of ports, or of our northern or southern borders for that matter, could 
be catastrophic to the well-being of our nation and it needs to be 
treated with the highest priority. I am concerned right now that we are 
not getting the proper response from the agencies that you will be 
responsible for, and that business is not getting done: meetings are 
delayed and cancelled. While I understand the need for some delay as a 
result of restructuring, it will be crucial that you get on the stick 
as rapidly as possible.
    Communication and collaboration between the agencies that have been 
brought together under the Department of Homeland Security are the 
reasons that the new Department was created. Agencies within Border and 
Transportation Security, such as Customs, Immigration and The Border 
Patrol, APHIS, TSA, and the Federal Protective Service must work with 
the rest of Homeland Security, in particular the Coast Guard, which 
remains as an independent entity within the Department of Homeland 
Security and is crucial to our port and maritime security. In addition 
to coordinating with other agencies in the Department of Homeland 
Security, it will be crucial to coordinate with other agencies, such as 
the Department of Transportation (DOT). The line between DOT's 
jurisdiction over safety and your jurisdiction over security may seem 
blurred, prudence and the security of our nation depend on your ability 
to work in a cooperative fashion. Infighting and territorial disputes 
over jurisdiction and responsibilities will only lead to a weak 
security system.
    It will take a strong leader, like you have proven yourself to be 
at the Drug Enforcement Agency, to create an effective Border and 
Transportation Security Directorate. The communication, collaboration 
and cooperation that the DEA and Coast Guard have shown in the war on 
drugs presents a good model to emulate for the security of our 
transportation system. Thank you for being here today. I am eager to 
hear your input and responses to our questions.
                                 ______
                                 
     Response to Written Questions Submitted by Ernest F. Hollings
                           to Asa Hutchinson

Management and Start-up
    Question 1. What do you see as the first priorities in setting up 
the Border and Transportation Security Directorate?
    Answer. My first priorities in setting up the BTS Directorate 
include bringing the incorporated agencies on board in an orderly and 
well managed fashion, communicating frequently and effectively with 
agency employees and Congress during the process; establishing strong 
working relationships with the Coast Guard and intelligence directorate 
to improve intelligence sharing and operational coordination; 
developing visa issuance regulations; and reducing problem areas in INS 
enforcement.

    Question 2. As the most recent head of the Drug Enforcement Agency 
(DEA) you have had an up-close look at the difficulties in securing a 
border as vast as ours. It is no secret that despite the continued 
efforts of our government to control illegal narcotics and immigration, 
staggering numbers of undocumented aliens and illicit drugs seem to 
enter and leave our country at will.

    a.) Do we currently have the resources to make our Homeland truly 
secure?
    Answer. No amount of resources can make the United States 100 
percent secure, but the creation of the Department of Homeland Security 
will leverage the resources that we do have. We must use a risk 
assessment and threat assessment approach to best use our resources. We 
must use current technology in innovative ways, and we must develop new 
technologies that can help us achieve homeland security.

    b.) What steps do you plan to implement to make a difference 
immediately?
    Answer. Integrating all of our federal inspectors under a common 
port director at each port of entry is an important first step. Another 
important first step will be to ensure BTS agencies are focused on 
Homeland Security missions. In order to do this I am establishing a 
Policy Council comprised of BTS Agency heads, the Coast Guard, and key 
members of other DHS directorates. This Policy Council will also help 
us achieve what the military calls ``unity of effort.''

    c.) What are your long term plans?
    Answer. Longer term, I will continue to consolidate like functions 
within the agencies. I will also ensure that similar initiatives in 
various agencies will complement each other rather than compete for 
resources. I will ensure that enforcement priorities are appropriately 
aligned to reflect DHS priorities. As risk and threat assessments of 
our ports and other critical infrastructure are complete, I will 
distribute resources appropriately.

    d.) Do you believe the military has a role in this effort?
    Answer. Yes, the military does have a role, but in a support 
capacity. Border enforcement is not a military responsibility but a law 
enforcement one. The military, such as the National Guard, can help in 
terms of support to the front line law enforcement agencies.

    e.) Can we be successful without creating a police state?
    Answer. Absolutely.
Cooperation
    Question 3. The roles of the different organizations responsible 
for securing our transportation system have not yet been finalized. 
There is some overlap and apparent duplication between the actions of 
TSA, Customs, INS, and DoT agencies.

    a.) What steps will you take as Undersecretary to ensure that the 
roles of each agency are clearly understood and coordinated?
    Answer. We are already engaged in examining the legislated 
responsibilities and functional capabilities of each agency to 
understand where potential overlaps exist and to determine how to 
eliminate unnecessary overlap. Right now, we're focusing on the border 
inspections functions, the investigations functions, and the 
international functions of the agencies that are coming into BTS. The 
Coast Guard has been an active participant in these workgroups.

    b.) How do you envision the role of the Coast Guard in relation to 
the role and mission of the Border and Transportation Directorate?
    Answer. We recognize that although the Coast Guard has unique 
responsibilities that fall outside of BTS responsibilities, it is an 
agency with significant maritime border and transportation security 
responsibilities. It brings substantial expertise, broad authorities, 
substantial capabilities and importantly, robust connections to the 
local national and international maritime community--all of which are 
critical to creating a secure border and transportation system. I am 
committed to working closely with the Coast Guard in a departmental 
approach to meeting the Nation's security needs.

    c.) What steps do you envision to strengthen coordination between 
Coast Guard and the Border and Transportation Security Directorate?
    Answer. To the end of strengthening BTS-Coast Guard coordination, 
we've already taken steps down that path. The Coast Guard senior 
leadership has been an active participant in BTS study groups; The 
Coast Guard Chief of Staff is a member of my BTS policy council; and I 
have several senior Coast Guard officers on my staff, all to ensure the 
BTS-Coast Guard team is a strong and coordinated one.

    d.) How do you envision the relationship between the Directorate 
and the DoT modal administrations?
    Answer. A BTS mandate is to ensure security across all 
transportation modes, while at the same time, ensure the speedy, 
orderly, and efficient flow of lawful traffic. Fulfilling that mandate 
requires close and coordinated effort with the modal administrators of 
DoT. I am committed to establishing the coordinating mechanisms (i.e., 
liaisons, councils, operational connections, collaborative standard 
setting) that will make that mandate a reality. TSA has been in the 
process of executing MOUs with DoT modal administrations. These MOUs 
will likely form the basis of the relationship between BTS, TSA and 
DOT. These MOUs are currently under review and will be finalized as 
soon as possible

    e.) The Federal Government regulates important safety and 
commercial aspects of interstate and foreign commerce through many 
different agencies in several departments, including the Department of 
Transportation. Assuming inspectors from the Department of Homeland 
Security might search hazardous materials shipments for possible 
security risks, how will you ensure the most effective coordination 
with inspections already being performed by other agencies, so as not 
to impede interstate commerce, while still maintaining the primary 
requirement of security?
    Answer. We are in the process of developing MOUs to assure that a 
coordinated effort exists between DHS inspectors of hazardous materials 
and the inspectors from other agencies and departments in order to 
ensure that interstate commerce is not impeded and that security 
concerns are addressed.

    f.) What steps will you take to ensure that inspections occur at 
the most proper place, given the security needs, and avoiding 
duplicate, costly private sector expenditures? For instance, avoiding a 
situation where a container ship must unload a container for inspection 
at three different ports, also having to reposition countless other 
containers that are in the way?
    Answer. BTS agencies have initiated a number of programs to improve 
port security while reducing the impact of these security measures on 
the private sector. These include efforts to push the borders overseas, 
such as the Container Security Initiative, Operation Safe Commerce, 
Customs Trade Partnership Against Terrorism, and Operation Safe 
Commerce. These complement International Maritime Organization 
initiatives that will enhance international shipping security while 
creating a level playing field for maritime shippers. Importantly, the 
consolidation of many port inspection agencies into BTS, together with 
the creation of the DSH Information Analysis and Infrastructure 
Protection Directorate, will allow greater coordination and information 
sharing. This will allow our inspectors to focus the right level of 
attention on cargoes coming across our border and avoid unnecessary 
duplicative inspections.

    Question 4. Since TSA was created by the Aviation and 
Transportation Security Act of 2001 (ATSA), it has been operating under 
Memoranda of Understanding (MOUs) with various government agencies. 
Additionally it is my understanding that TSA under the provisions of 
the Maritime Transportation Security Act (MTSA) envisions executing a 
number of MOUs to help coordinate security functions.

    a.) As TSA transitions to the Department of Homeland Security, do 
you foresee any possibility that these MOUs will have to be changed in 
any way? If so, what needs to be done to make the MOUs workable for the 
new Department?
    Answer. Any existing MOU's will continue in effect and will not be 
affected by the transfer of TSA into the Department of Homeland 
Security. However, we are in the process of reviewing existing MOU's to 
determine what, if any, changes are appropriate and we will consider 
whether we should enter into any new agreements to enhance the 
coordination of security functions.

    b.) How do you feel you will be able to maintain open paths of 
communication between the Border and Transportation Security 
Directorate and the rest of the Homeland Department, other federal 
agencies, local law enforcement and industry?

    Answer. One of my top priorities is to maintain open paths of 
communications between the Border and Transportation Security 
Directorate and the rest of the Department as well as other federal 
agencies, local law enforcement, and industry. I plan to work very 
closely with the Department's Office for State and Local Government 
Coordination and with private industry to ensure that we coordinate 
activities that affect those entities and maintain open lines of 
communications.

    c.) Please provide a list of all existing MOUs, and those MOUs 
under consideration by your Directorate.
    Answer. There are no existing MOUs of the BTS Directorate. MOUS 
with the Departments of State, Transportation, Justice and Agriculture 
are in progress.

    Question 5. In section 70116 of the Maritime Transportation 
Security Act (MTSA) we established a program for the Department of 
Homeland Security to evaluate and certify secure systems of intermodal 
transportation. The MTSA repealed the original provision on secure 
systems of transportation which housed the program in the Department of 
the Treasury under the jurisdiction of Customs. The change to this 
program in MTSA was done in recognition of the intermodal nature of 
container transportation, and the domestic and international nature of 
container movements.
    Given the many different programs that have been initiated on 
intermodal cargo security, such as the Customs' program CTPATT and the 
Container Security Initiative, as well as programs such as Operation 
Safe Commerce. Do you feel that the Directorate could establish one 
program on the certification of secure systems of transportation and 
bring these other programs into consideration and review under one set 
of standards? What agency in your Directorate do you see leading the 
effort to establish and certify systems of international intermodal 
transportation?
    Answer. We are in the process of collecting information on the 
various programs that have been initiated on intermodal cargo security 
by Customs, TSA and the Coast Guard. After further review and analysis 
of that information, we will determine whether or not to establish one 
program on certification, the feasibility of one set of standards, and 
which agency or agencies could further lead efforts at establishing and 
certifying systems of international intermodal transportation is 
appropriate.
Mission
    Question 6. With the concentration on aviation security, the 
remaining modes of transportation are largely neglected. There are a 
number of issues that need to be addressed such as the movement of 
hazardous materials, the security of passenger rail, and the 
appropriate relationship of government and industry as we work to 
establish security standards and work to enforce them.

    a.) How will you ensure that the Department of Homeland Security 
will place more focus on maritime and surface transportation security 
risks?
    Answer. By necessity and the statutory mandates of ATSA, TSA has 
focused its near-term efforts on aviation security. The agency is now 
turning its efforts to strengthening the security of the other 
transportation modes such as martime and surface transportation. DHS is 
committed to strengthening security of these modes and is working with 
TSA to define responsibilities and develop risk assessments based on 
threat information to develop performance-based standards for these 
transportation modes.

    b.) The manpower shortage within TSA's division of Maritime and 
Land Security shows a significant lack of security oversight in these 
areas. How will you resolve this staffing issue in an expedited manner?
    Answer. We look forward to working with TSA to ensure that Maritime 
and Land Security components are adequately staffed.

    c.) How do you envision that the Department of Homeland Security 
will ensure the security of shipments as they move in intermodal 
commerce, traveling from ships to rail to trucks?
    Answer. DHS and BTS are committed to strengthening security of our 
intermodal transportation systems. We will ensure that vulnerability 
assessments are conducted as soon as possible so that performance-based 
security standards for the surface transportation are modes can be 
established.

    Question 7. We understand that less than 3 percent of all 
intermodal and general freight containers coming into United States 
maritime ports are physically inspected for their contents. Does the 
Department of Homeland Security have a goal to increase this 
percentage? While it may be impossible to physically inspect all marine 
containers, the current system relies on an evaluation of information 
on cargo entry in order to evaluate the cargoes that may pose the 
greatest risks. However, given that it is incredibly easy to falsify 
shipping documents, it will be vitally important to have a effective 
inspection regime. What are your plans to reach an inspection rate that 
will provide an adequate deterrent for the use of maritime freight 
containers for terrorism or illegal activity?
    Answer. We will look at the whole system of container security, 
including methods to secure containers, tracking devices, and better 
targeting, to ensure the appropriateness of our container examinations. 
A high-risk random examination process and further review of 
examination concepts will be conducted, to ensure better, more 
intensive targeting is being performed, to adequately address the 
threat of terrorism in maritime freight containers.

    Question 8. How will you deal with international commerce issues 
that arise from the transport of hazardous or nuclear materials (i.e., 
explosives) across the Canadian and Mexican borders when international 
trade laws allow such crossings? Specifically, what will TSA's role be 
in completing background investigations of hazardous materials drivers 
as required by the USA PATRIOT Act, and as well what steps will you 
take to ensure that mariners who ship spent nuclear materials pose no 
threat to our security?
    Answer. TSA is in the process of developing the Transportation 
Worker Identification Credential(TWIC) to provide improved perimeter 
control to the national transportation system. The TWIC will allow 
implementation of a uniform, nationwide standard for secure 
identification of transportation workers and access control for 
transportation facilities. The TWIC is intended for each of the 12 
million transportation workers requiring unescorted physical access to 
secure areas of the nation's transportation modes including those who 
transport hazardous materials.
Intelligence
    Question 9. Intelligence failures still resonate from the events of 
9/11, perhaps such breakdowns played the most critical role in allowing 
the terrorist plans to go forward without resistance. Provisions in 
ATSA and MTSA seek to improve communication between the Federal 
Government, law enforcement and the intelligence community.
    a.) Are strategies being developed so that intelligence is 
received, analyzed, and disseminated to the appropriate agencies that 
can best make use of this?
    Answer. I am mindful of the criticality of ensuring that vital 
intelligence information flows quickly from those who initially receive 
it to those on the front lines of border and transportation security. 
One of my top priorities will be to work with the Directorate for 
Information Analysis and Infrastructure Protection as well as the FBI's 
Joint Terrorism Task Forces to make sure that the right information is 
received, analyzed, and disseminated in the most timely and effective 
fashion.

    b.) What progress has been made to date on this front? How quickly 
is information analyzed and disseminated to law enforcement, potential 
targets and other pertinent entities? What types of impediments are 
causing problems? What steps need to be taken to improve and speed the 
flow of vital intelligence information from those that initially 
receive it to those on the front line of transportation security that 
need it?
    Answer. While progress has already been made on this front, we will 
certainly be looking at what steps need to be taken to improve the flow 
of intelligence information. In the Directorate for Border and 
Transportation Security, I believe that combining some of the resources 
we will have at the borders and in the interior will facilitate and 
speed up information sharing. In addition, the Department of Homeland 
Security's Command Center will be a single point for disseminating 
information to Federal, State, and local governments, as well as the 
private sector, as appropriate.

    c.) Is there a place for biometric technology in visa and even 
ticketing/boarding pass systems?
    Answer. I believe that there is a lot of value to be gained in 
employing biometrics to secure our borders and transportations systems 
and I intend to focus on that area in particular.

    d.) In particular, I have concerns about the ability to coordinate 
and evaluate maritime intelligence. In your capacity with DEA you have 
experience with the cooperative efforts of the Joint Inter-Agency Task 
Force (JIATF). Would this model provide a good basis for the 
coordination of maritime intelligence?
    Answer. I am familiar with the JIATF model and will consider a 
similar model within BTS.
TSA
    Question 10. When the Transportation Security Administration (TSA) 
was created through the passage of the Aviation and Transportation 
Security Act of 2001 (ATSA), Congress recognized that transportation 
security was indeed an issue of ``national security.'' We understood 
that building the TSA from the ground-up would require a major 
restructuring of the current system of security. TSA has made good 
progress on aviation matters over the year since it was established, 
but now, it has been placed in the Homeland Security Department, and 
many have expressed concern that the mission of the TSA will be 
negatively impacted as a result of this move--significant steps remain 
to protect air travel and we are just scratching the surface of 
protecting other modes of transportation.

    a.) Would TSA's mission have been better served by keeping it as an 
independent entity until the Homeland Security Department is fully up 
and functioning?
    Answer. From the start, TSA's mission has been to secure our 
nation's transportation systems, with particular focus on the aviation 
system. Whether TSA resides at the Department of Transportation or at 
the Department of Homeland Security, that mission will not change. What 
will change is the closer relationship TSA will enjoy with other BTS 
agencies in the new structure. Admiral Loy has done an excellent job of 
standing TSA up and preparing the agency for its transfer to DHS, and I 
am confident that the transfer will not affect TSA's ability to fulfill 
this mission.

    b.) What steps are you taking to ensure that placing the TSA in 
this larger department will not cause the focus and progress that has 
been made on securing the various modes of transportation to be 
diminished?
    Answer. Creating the Department of Homeland Security was never 
intended to hinder the agencies incorporated into DHS from doing their 
part to protect the homeland. Admiral Loy and TSA have had, and will 
continue to have a seat at the Border and Transportation Security 
Directorate table, especially with respect to policy initiatives. 
Furthermore, inclusion of TSA in BTS, which also houses the Customs 
Service, INS enforcement and Border Patrol, and close coordination at 
the operational level and at senior management levels with the Coast 
Guard and the Intelligence Directorate, will allow us to augment TSA's 
already excellent presence in the aviation arena, and focus resources 
most effectively in the areas where TSA's work is just beginning.

    Question 11. Amtrak transports more than 23.5 million passenger and 
61 million commuters per year. TSA is now considering implementing a 
limited pilot program to conduct screening of passengers and baggage at 
train stations. Amtrak is in a precarious financial situation and they 
do not have a seurity force along the lines of the aviation screeners 
employed by TSA.
    While the aviation industry enjoys the services of federally-funded 
TSA screeners, what can you do to ensure that Amtrak screeners receive 
the same level of training and expertise to safeguard rail passengers?
    Answer. For the last year, TSA's congressionally mandated mission 
and allocated resources have appropriately been devoted to securing our 
nation's aviation systems. However, recognizing its broader mandate to 
secure all modes of transportation, TSA has entered into agreements and 
Memoranda of Understanding with all of the modes of transportation, 
including the Federal Rail Administration, Federal Transit 
Administration and Amtrak, in order to partner with those agencies and 
their constituents to leverage their limited security resources and 
focus on the most significant threats. TSA will continue to work in 
close partnership with those agencies to develop guidelines and 
standards for the training and deployment of rail security screeners.

    Question 12. Since 9/11, Amtrak has been appropriated only $105 
million for security, $100 million of which is being put towards life 
safety needs in tunnels below NYC, Baltimore, and Washington. I 
understand there are still needs totaling $698 million in these 
tunnels. But for the rest of the system, how will you ensure that 
appropriate attention is focused on rail infrastructure security needs?
    Answer. TSA has been working with Amtrak, states and localities, 
and the Federal Rail Administration to assess vulnerabilities and focus 
limited resources where they will be most effective. TSA and BTS will 
continue these partnerships and working relationships, working with 
them and with the Congress to ensure that rail security is given 
appropriate levels of attention.

    Question 13. As you know, the Bush Administration announced last 
year that it would open the U.S. border to Mexican long-haul trucking, 
thereby permitting Mexican trucks to travel anywhere in the United 
States. That action was stayed last week by the Ninth U.S. Circuit 
Court of Appeals which ruled that the government must first complete an 
environmental review of the demise of a 10-year-old moratorium banning 
Mexican trucks from operating in the United States. As you know, under 
the USA Patriot Act, U.S. drivers who haul hazardous materials, 
including explosives, must undergo a criminal history record check 
before receiving a hazardous materials endorsement. Although the 
Department of Transportation has not yet promulgated regulations to 
conduct these checks, once they have:

    a.) What steps would you take as Under Secretary of Homeland 
Security for Border and Transportation to assure that Mexican truck 
drivers who haul hazardous materials into the United States receive a 
similar criminal history record check?
    Answer. Pending the outcome of the Ninth U.S. Circuit Court of 
Appeals, environmental impact decision, we will coordinate with the 
Department of Transportation on the promulgation of regulations to 
conduct background checks, and to potentially include criminal history 
record checks on drivers entering the United States for long-haul 
hazardous materials trucking.

    b.) What assurances do you have that any criminal history record 
check conducted by Mexican law enforcement officials can uncover anyone 
that might be influenced to conduct a terrorist act against the United 
States?
    Answer. We've been working with our Mexican law enforcement 
counterparts and look forward to maintaining and improving this 
relationship.

    c.) What measures would you initiate to assure that Mexican long-
haul trucking does not become a way for terrorists to smuggle an 
explosive device into the United States?
    Answer. Consistent with the layered enforcement approach taken by 
the Administration, including background checks, criminal history 
checks, and biometric identification for the long-haul drivers, in 
addition to Customs Trade Partnership Against Terrorism (CTPAT) 
measures to thwart terrorist attempts, we will continue to refine our 
efforts.
Customs
    Question 14. In general I am supportive of the Customs Department's 
``Container Security Initiative (CSI).'' During your nomination hearing 
you mentioned the competitive pressures driving ports to join CSI, 
nevertheless, I have concerns that it may be diluted by inviting every 
nation in the world to join. I would suggest that only those nations 
that have the highest standards of security, the purveyance of quality 
information, and that provide us with full access and the ability for 
law enforcement to pursue. What sort of standards are you planning to 
implement to ensure that only those nations that have the highest 
security standards will be part of the container security initiative?
    Answer. CSI rollout will include standards focused on volume of 
containers being exported to the United States, seaport security at 
that foreign location, a strong professional Customs Service with a 
commitment to seaport security, rapid information sharing, and the 
capability to deploy non-intrusive detection technology systems. 
Countries participating will be carefully screened and vetted.

    Question 15. Current devices used to examine the contents of a 
shipping container use gamma ray technology that provides a picture 
similar to the picture on an airport carry-on luggage machine. The 
inspectors looking at these images are having to determine the 
significance of different densities represented in the image. At issue 
here is that a large shipping container can be full of many different 
cargoes that have different densities making it more of an art than a 
science to determine the difference between a legitimate shipment of 
microwaves, bicycles and other items and a threatening item. How would 
you encourage the development of improved technologies that will 
facilitate a scientific evaluation of huge containers that may have 
many different shipments and what steps will be taken to manage their 
implementation?
    Answer. We look forward to working very closely with the new Under-
Secretariat Directorate for Science and Technology, here within the 
Department of Homeland Security, on identifying and procuring new and 
improved technologies at pinpointing anomalies and discrepancies in 
containerized cargo. As these technologies are identified, we will work 
towards rapid procurement and deployment to our nation's ports.
Port Security Funding:
    Question 16. The Senate added an amendment to the Appropriations 
Bill providing $150,000,000 for developing nuclear and biological 
detection technology as well as other types of technology that could 
help secure U.S. seaports. This is only one aspect of port security, 
and the money is for research and development, and not for the 
implementation of physical security enhancements needed to comply with 
MTSA. The Coast Guard has preliminarily estimated compliance costs to 
be much closer to $7 billion. What are the priorities and potential 
methods for funding port security?
    Answer. The Maritime Transportation Security Act just passed by 
Congress offers a systematic approach of defining responsibilities, 
creating standards, assessing vulnerabilities, and authorizing funds to 
address those vulnerabilities. It prescribes a number of actions that 
include conducting port vulnerability assessments, to accurately 
identify and prioritize the security weaknesses in each our nation's 
361 seaports. This is critical to understanding where to invest the 
public and private monies to provide the best security return on that 
investment. One of my top priorities will be to conduct these 
assessments as quickly as possible. We will apply available funds to 
address the greatest risks in the most vulnerable ports, and employ 
matching fund grants authorized by the Act to develop the public-
private sector approach that maritime security requires.
Rail Security Concerns:
    Question 17. After 9/11, the freight rail industry took steps to 
improve security throughout the system, including developing an 
industry-wide threat response plan. Do you feel the rail industry 
efforts are sufficient to safeguard rail infrastructure from the 
possibility of sabotage and other security risks?
    Answer. The steps taken by the rail industry are important first 
steps to improve security for our nation's surface transportation 
system. We are committed to working in partnership with the rail 
industry to improve security by conducting risk assessments, assessing 
threat vulnerabilities and issuing performance-based security 
standards.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Frank Lautenberg
                           to Asa Hutchinson

    Question 1. Mr. Hutchinson, controversy has surrounded the 
appropriateness of using racial profiling for transportation security. 
Secretary of Transportation Norman Mineta has made some strong 
statements about the counter-productiveness of racial profiling. What 
are your perspectives on the usefulness of racial profiling for 
maintaining transportation security?
    Answer. I do not believe that treating citizens differently on the 
basis of race or ethnicity is appropriate, and I will ensure that the 
employees of the Department do not engage in any form of unlawful 
discrimination. I will make it clear that racial discrimination will 
not be tolerated, and I will pay close attention to any concerns 
expressed by the Officer for Civil Rights and Civil Liberties along 
these lines, as well as complaints or concerns raised by citizens or 
interest groups.

    Question 2. Three million containers annually are moved in the port 
of New Jersey and New York, the second largest amount in the nation. In 
the FY 03 budget, we will have some $300 million for port security 
between the bill and the supplementals. Yet, the Coast Guard estimated 
that over $7 billion could be needed to improve the security of 
vulnerable facilities near water and vessels that could be involved in 
a ``transportation security incident.'' We are obviously nowhere near 
the levels of funding needed right now. Clearly, there is a great need 
for increasing funding for port security. Given the President's budget 
cuts and fiscal restraints, how are we going to effectively protect our 
ports?
    Answer. The Maritime Transportation Security Act just passed by 
Congress offers a systematic approach of defining responsibilities, 
creating standards, assessing vulnerabilities, and authorizing funds to 
address those vulnerabilities.
    It prescribes a number of actions that include conducting port 
vulnerability assessments, to accurately identify and prioritize the 
security weaknesses in each our nation's 361 seaports. This is critical 
to understanding where to invest the public and private monies to 
provide the best security return on that investment. One of my top 
priorities will be to conduct these assessments as quickly as possible. 
We will apply available funds to address the greatest risks in the most 
vulnerable ports.
    BTS agencies have initiated a number of other programs to improve 
port security. These include efforts to push the borders overseas, such 
as the Container Security Initiative, Operation Safe Commerce, Customs 
Trade Partnership Against Terrorism, Operation Safe Commerce. These 
complement International Maritime Organization initiatives that will 
enhance international shipping security. Importantly, the consolidation 
of many port agencies into BTS will allow greater coordination and 
information sharing.
                                 ______
                                 
       Response to Written Questions Submitted by Maria Cantwell
                           to Asa Hutchinson

    Question 1. In your confirmation hearing, you emphasized that you 
found being out in the field valuable experience. Washington is the 
most trade-dependent state in the nation, and one in three jobs in my 
state depends on trade. Our land border generates an estimated $35 
million a day, providing thousands of jobs for the Washington economy. 
Our seaports move over $56 billion in trade annually, and the Port of 
Seattle alone supports 165,000 jobs. Staying competitive is critical 
for our ports as they are often directly competing with their Canadian 
counterparts just 90 miles north. At the same time, both our port and 
land borders are some of the most vulnerable due to their proximity to 
large population bases, and we have an unfortunately proven record of 
terrorist activity.
    Given the unique challenges that my state is facing, as the 
Department of Homeland Security moves to create a more integrated 
approach to border security, would you commit to making a trip to 
Washington state to tour our border and port infrastructure this year?
    Answer. Creating a port environment that is both secure and 
competitive is the balance that Homeland Security must work to achieve. 
It would be very helpful for me to see first-hand the challenges faced 
by the Port of Seattle and the State of Washington with regard to your 
border and port infrastructure. I certainly will commit to making every 
effort to travel to Washington State this year as you requested.

    Question 2. You were asked a number of questions about port and 
container security and the need to secure containers before they reach 
our ports. The Port of Seattle for example, is only five blocks away 
from Safeco Field and Seahawks Stadium. How will you seek to develop 
bilateral security agreements and build an international consensus with 
our trading partners on security protocols to ensure that cargo is safe 
before it sets sail for the U.S.?
    Answer. Developing international partnership to improve cargo 
security is essential to protecting the homeland, and it shares the 
responsibility for security across the board. I will support these 
objectives by continuing the Container Security Initiatives of U.S. 
Customs and expanding the number of nations participating in the 
bilateral security efforts.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Gordon Smith
                           to Asa Hutchinson

    Question 1. TSA and airport coordination--The Federal Government 
and individual airports have worked well together to protect the safety 
and security of the traveling public. I would like to commend Admiral 
Loy for doing a tremendous job to reach out to individual airports and 
addressing their specific concerns while also seeking their involvement 
and guidance in many areas. How do you intend to foster continued 
involvement and input from airports across the country?
    Answer. As airport security continues to be strengthened and 
adjusted to address threat assessments, it is essential to have a close 
partnership with the airport managers and the various associations 
representing large and small airports. I will be sure that Admiral Loy 
and TSA representatives continue to work with the individual airports 
to know of their concerns and the partner with them to the largest 
extent possible to address security issues which are a priority to all. 
In addition, I will personally meet with Airport Managers and 
Association representatives as I inspect airports across the country. 
Finally, as policy decisions are made, it is important to consult with 
affected parties, including airports, to weigh the impact of policy 
decisions.

    Question 2. Partnerships between TSA and aviation groups--What 
public or private initiatives and partnerships have been formed to 
promote security in the advent of the war on terrorism within our 
nation's borders?
    Answer. TSA has formed partnerships with aviation association such 
as the Air Transport Association, Regional Airline Association, Cargo 
Airline Association, American Association of Airport Executives and 
Airports Council International, North America. TSA has also formed 
partnerships with the Airline Pilots Association and the Aircraft 
Owners and Pilots Association. These associations are the points of 
contact for TSA in promoting aviation security within our nation's 
borders. TSA has developed highly effective relationships with these 
associations and is in daily contact with them regarding operational, 
policy, security and safety matters that affect all facets of the 
airline industry.

    Question 3. Immigration Concerns--My state has had a very negative 
history with the former INS District Director in Oregon. How will you 
ensure that local immigration offices will be accountable to local 
concerns and the effects of enforcement on local and state economies?
    Answer. The structure of INS will change as it moves over to the 
Department of Homeland Security on March 1. There will be a division of 
responsibility for INS Services, INS Enforcement and INS Shared 
Services.
    If confirmed, I will be responsible for INS Enforcement oversight. 
This division of responsibility will give DHS leadership an opportunity 
to hold INS officials more accountable to local concerns. It is 
important to have an ongoing discussion with local leaders on the 
effects of enforcement and to address, as appropriate, the concerns of 
local leaders. I will foster this type of interchange with the INS 
Enforcement Agency.
    In addition, within the BTS Directorate, an Office of Professional 
Responsibility and Quality Review will be established to address 
assessment of management and quality of operations.

    Question 4. Oregon students, businesses and tourists have been 
adversely affected by lengthy security clearance delays at various 
embassies and consulates. What measures will you take to ensure that 
these clearances are processed timely to support the flow of business, 
while continuing to maintain our nation's security and protect our 
border?
    Answer. We will work with the Departments of State and Justice to 
ensure the sharing of information among databases and to improve the 
timely flow of information to embassies and consulates. Under the 
authority given to us in the Homeland Security Act, we will be 
deploying employees to embassies and consular posts to develop programs 
of homeland security training for consular officers, review visa 
applications and facilitate the clearance process. Obviously, DHS has a 
responsibility to protect America from those who would abuse the visa 
procedures. It is our hope to accomplish this objective without unduly 
delaying legitimate visa applications.

                                  <all>

</pre></body></html>
